<html>
<title> - ASSESSING THE ENVIRONMENTAL RISKS OF THE WATER BOTTLING INDUSTRY'S EXTRACTION OF GROUNDWATER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





  ASSESSING THE ENVIRONMENTAL RISKS OF THE WATER BOTTLING INDUSTRY'S 
                       EXTRACTION OF GROUNDWATER

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2007

                               __________

                           Serial No. 110-163

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
49-776                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
TOM LANTOS, California               DARRELL E. ISSA, California
ELIJAH E. CUMMINGS, Maryland         DAN BURTON, Indiana
DIANE E. WATSON, California          CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER S. MURPHY, Connecticut   JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
BRIAN HIGGINS, New York              BRIAN P. BILBRAY, California
BRUCE L. BRALEY, Iowa
                    Jaron R. Bourke, Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 12, 2007................................     1
Statement of:
    Hauter, Wenonah, executive director, Food & Water Watch; 
      David W. Hyndman, Department of Geological Sciences, 
      Michigan State University; Noah D. Hall, Wayne State 
      University Law School; Joseph K. Doss, president and CEO, 
      International Bottled Water Association; and James Wilfong, 
      executive director, H20 for ME.............................   106
        Doss, Joseph K...........................................   154
        Hall, Noah D.............................................   123
        Hauter, Wenonah..........................................   106
        Hyndman, David W.........................................   116
        Wilfong, James...........................................   169
    McFarland, Richard, founding member, McCloud Watershed 
      Council; Terry Swier, founder and president, Michigan 
      Citizens for Water Conservation; Bill McCann, member, Board 
      of Directors, Save Our Groundwater; and Heidi Paul, vice 
      president of corporate affairs, Nestle Waters North 
      America, Inc...............................................    13
        McCann, Bill.............................................    26
        McFarland, Richard.......................................    13
        Paul, Heidi..............................................    34
        Swier, Terry.............................................    19
Letters, statements, etc., submitted for the record by:
    Doss, Joseph K., president and CEO, International Bottled 
      Water Association, prepared statement of...................   156
    Hall, Noah D., Wayne State University Law School, prepared 
      statement of...............................................   125
    Hauter, Wenonah, executive director, Food & Water Watch, 
      prepared statement of......................................   109
    Hyndman, David W., Department of Geological Sciences, 
      Michigan State University, prepared statement of...........   118
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Article dated Spring 2006................................     2
        Prepared statement of....................................     6
    McCann, Bill, member, Board of Directors, Save Our 
      Groundwater, prepared statement of.........................    28
    McFarland, Richard, founding member, McCloud Watershed 
      Council, prepared statement of.............................    16
    Paul, Heidi, vice president of corporate affairs, Nestle 
      Waters North America, Inc., prepared statement of..........    36
    Stupak, Hon. Bart, a Representative in Congress from the 
      State of Michigan, prepared statement of...................   181
    Swier, Terry, founder and president, Michigan Citizens for 
      Water Conservation, prepared statement of..................    21
    Wilfong, James, executive director, H20 for ME, prepared 
      statement of...............................................   171

 
  ASSESSING THE ENVIRONMENTAL RISKS OF THE WATER BOTTLING INDUSTRY'S 
                       EXTRACTION OF GROUNDWATER

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2007

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Shays, and Issa.
    Also present: Representative Watson.
    Staff present: Jaron R. Bourke, staff director; Charles 
Honig, counsel; Jean Gosa, clerk; Natalie Laber, press 
secretary, Office of Representative Dennis J. Kucinich; Leneal 
Scott, information systems manager; Chris Mertens, intern; Alex 
Cooper, minority professional staff member; Larry Brady, 
minority senior investigator and policy advisor; and Benjamin 
Chance, minority clerk.
    Mr. Kucinich. Good afternoon. I am Congressman Dennis 
Kucinich, chairman of the Domestic Policy Subcommittee of the 
Committee on Oversight and Government Reform. The committee 
will now come to order. With me here is the ranking member of 
the committee, the Honorable Darrell Issa of California. And he 
and I will be participating in this hearing, examining the 
environmental issues presented when water bottling plants 
extract groundwater and spring water from water sources in 
rural communities.
    Now, without objection, the Chair and the ranking minority 
member will have 5 minutes to make opening statements, followed 
by opening statements not to exceed 3 minutes by any other 
Member who seeks recognition. And without objection, Members 
and witnesses may have 5 legislative days to submit a written 
statement or extraneous materials for the record.
    I have long had an interest in issues relating to water and 
water supplies. As a matter of fact, in a Spring 2006 issue of 
Waterkeeper Magazine, I wrote a piece explaining my concerns 
about the annexation and overuse of waters in Lake Erie and the 
Great Lakes, which is the largest source of fresh water in this 
country. And without objection, I would like to submit that 
article for the record.
    [The information referred to follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kucinich. Now, if we give any real thought when opening 
a bottle of spring water, maybe it is to congratulate ourselves 
on our healthy choice or to dream of a shrinking waistline. But 
it may come as a surprise that virtually every aspect of the 
bottling industry's extraction of groundwater, how much water 
to pump and from where to pump it, the effects of pumping on 
the surrounding environment and who should have the authority 
to make pumping decisions, all these things are often hotly 
contested. For a variety of reasons, bottled water is not like 
any other commodity. And the protection of our Nation's 
groundwater, often understood as held in public trust, involves 
many crucial issues of public interest.
    Some of these issues will not be our main focus today, such 
as concerns about bottled water quality; the profit earned off 
water even as public water infrastructure is neglected; damage 
caused by the manufacture and disposal of the bottles; the 
propriety of transferring water resources out of a region or 
out of a country. Instead, we will focus on the environmental 
effects of bottling on local communities.
    The domestic bottled water industry, which includes both 
distilled municipal water and spring water, has seen remarkable 
growth. Last year, Americans spent more than $10 billion on 
bottled water, which translates to an average annual 
consumption of 27 gallons per person, double the amount 
consumed just 5 years ago. This growth has been a boon to the 
industry. The largest bottler is Nestle Waters North America, 
which through rapid industry consolidation now controls 32 
percent of the domestic market through its 14 different brands.
    Because of the growing market for bottled water, bottlers 
are constantly looking for untapped watersheds in relatively 
undeveloped rural communities which disproportionately bear the 
brunt of pumping's environmental impacts. As our groundwater 
hydrologists will explain, for every gallon of water pumped out 
of the groundwater, there is one gallon of water lost to 
streams in the watershed. If the pumped water is not recharged, 
there is a real danger of what could be called groundwater 
mining, which the U.S. Geological Service describes as ``a 
prolonged and progressive decrease in the amount of water 
stored in a groundwater system.'' Moreover, high capacity 
bottled water extraction in headwater locations can cause large 
percentage reductions in the flow of streams and rivers and the 
depletion of watersheds.
    Bottlers may seek out private land owners or directly 
contract with a municipality to obtain groundwater rights for 
years or decades. The issue is complicated by the fact that 
many rural communities have an interest in the economic 
activity that has been promised by the water bottlers. And 
indeed, some communities support the location of bottling 
plants. Obviously, aside from the pure economic incentives, 
certain interests of the water bottling industry are aligned 
with those of the local communities. Both have an interest in 
protecting the pristine water sources. In other respects, 
however, these interests of bottlers and communities may 
diverge, such as the downstream effects on surface waters or 
the long-term visions of development and conservation.
    Today we will hear from representatives of citizens groups 
that have opposed the location of bottling plants in their 
communities, on the slopes of Mount Shasta in California, in 
Michigan and in rural New Hampshire. They have often been 
frustrated by a complex patchwork of laws that they believe 
does not adequately protect the public interest.
    Traditionally, the vast majority of groundwater consumption 
is used for agriculture, mining and nonbottled municipal water. 
And groundwater use has been mainly regulated by the States. 
Under common law, groundwater has largely been regarded as a 
resource that can be extracted by anyone who owns the land 
above an aquifer or spring. The common law was formulated 
before modern science understood the connections between 
groundwater and surface water, and before the advent of large-
scale mechanized pumping. As a result, it provides little 
protection for conservation.
    Given the toothless nature of the common law, it is not 
surprising that States have enacted more comprehensive 
regulatory systems covering groundwater extraction. These come 
in a variety of forms. Some States like New Hampshire have 
enacted comprehensive laws. And we will also hear about new 
legislation passed in Maine and Michigan. These laws at best 
address the connection between groundwater and surface waters, 
mandate participation among those affected by pumping and call 
for increasing levels of security for larger withdrawals. At 
worse, State laws are woefully inadequate.
    Although groundwater management is mostly a State concern, 
many of the important decisions about locating a particular 
plant are local, the Federal Government does have a role. For 
years, scientists and policymakers have called on better 
funding for the U.S. Geological Service so they can map and 
monitor groundwater and its connection to surface water. The 
Federal Government could, but generally hasn't, taken other 
steps to prod the States to better groundwater management. 
There is also the issue of whether Federal agencies adequately 
enforce Federal protections such as the Clean Water Act, the 
Wild and Scenic Rivers Act and the Environmental Protection 
Act, that are triggered when surface waters are imperiled by 
groundwater extraction. Finally, there is a concern that the 
Food and Drug Administration's definition of spring water, 
which purports to ensure water quality, actually creates 
incentives for pumping at the most environmentally damaging 
sites. As far as I am aware, this is the first congressional 
hearing on many of these issues, and it is my hope that the 
hearing will help the reform process at all levels of 
government. So thank you.
    And at this time I would like to recognize Congressman 
Issa, the ranking member. Thank you, sir.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Issa. Thank you, Mr. Chairman. What most of you who 
aren't here regularly don't know is the chairman and myself 
have been able to very effectively find issue after issue we 
agree on. When I say we agree on, we agree on the issues. We do 
not always agree on the outcome or the view. The chairman and I 
have been able to work together very well on finding good 
issues. This is certainly one.
    In this case, I find it unfortunate that perhaps we are not 
looking at the underlying problem of bad potable water coming 
from our taps. That is probably my greatest concern here today, 
and we are not going to talk about it. Perhaps ancillarily, 
over time we will begin working on the issue. For example, here 
in the District of Columbia, if this water, as I suspect it 
did, did not come from a bottle, and is simply being disguised 
by being put into this carafe but in fact came out of the tap, 
please don't drink it. The amount of lead in our water is such 
that on a repeated basis each generation is told the previous 
generation didn't do enough. We have relined. We have done all 
kinds of things, but at the end of the day, and my staff behind 
me reminded me, the District of Columbia recently sent Brita 
filters out to take care of the accumulation of lead you will 
have if you drink that water. This is a problem in the District 
of Columbia and around the country.
    Earlier, in the previous Congress, we dealt with arsenic. 
Dealing with arsenic meant essentially the pumps in New Mexico 
and other places were shut off, and people were forced to bring 
their water in from other areas. We have a serious problem of 
delivering quality drinking water, consumable water in this 
country. To a lesser degree, we have a problem delivering water 
for nondrinking purposes.
    Mr. McFarland, I appreciate the fact you are from Shasta. I 
am a Southern Californian. It is no surprise that southern 
California, accused of killing fish and stealing water from the 
north, might at times recognize that California is, if you 
will, ground zero for this problem. Northern California has 
over four times the rain and snowfall that southern California 
has, while southern California has a majority of the 
population. Notwithstanding the attempts to build canals and to 
move water from the north to the south, far greater than all 
the bottled water that is being taken out of groundwater in 
California, far greater, and as a result, we could assume that 
what doesn't go into the ground in northern California and 
comes through peripheral and other canals doesn't go into the 
groundwater. California has been having this argument for in 
excess--well, I came to California--I will be honest--I came to 
California in the 70's. It was the hot topic then. It is the 
hot topic today.
    Realizing that these problems in California and around the 
country will not easily be solved, I am an advocate for any 
system that guarantees healthy drinking water for our citizens. 
I have questions for today that will not be answered.
    And Ms. Paul, I am not letting you off the hook. I still 
can't figure out why between drinking water and Starbucks 
coffee, gasoline seems like a deal from OPEC. There is a high 
cost of delivery of water through little bottles and so on. And 
I think that is a problem. The chairman pointed out in his 
opening statement that the question of disposal of tens of 
millions of little plastic bottles, not just every year but 
every month, is a real problem in America; the need to come up 
with an aggressive recycling plan; the need to, if not 
regulate, certainly ensure that bottled water and other forms 
of water delivered around the public systems are at or greater 
in quality to those that can be received from the tap.
    I thank the chairman for his bringing up this point today 
because it does open a dialog for the first time by this 
committee and, as far as I know, for the first time recently in 
Congress, to the fact that safe drinking water, affordable 
drinking water and sustainable aquifers around the country are 
in peril. So although I mentioned everything that wasn't in 
today's committee hearing, you have to begin somewhere. I 
commend the chairman for beginning the process. I am sure that 
when we review the notes of today, we will find far more 
available to us to digest than I am talking about here today. 
And hopefully, in time, we will hit all of the issues leading 
to America drinking high quality water.
    And in closing, I will note that the chairman and I are 
both native Clevelanders. So I share the fact that the Great 
Lakes are the greatest body of fresh water available on the 
planet and that very much bee need to look at that as a 
resource that is carefully managed. And I yield back.
    Mr. Kucinich. I want to thank my partner on this committee, 
Mr. Issa, for his comments.
    And in response, I just want you to know that this is a 
beginning. I would like to be responsive to what you suggest in 
looking at questions of the potability of water, drinking 
water, in this country as well as looking at the questions of 
water quality generally, both for drinking and nondrinking 
purposes, as well as the issues related to plastic, or bottled 
drinking water. I also want to say, and I appreciate you 
mentioning Cleveland, because as I indicated in my opening 
remarks, the issues relating to Lake Erie and protecting that 
drinking water and protecting the volume of the water are also, 
you know, I know of concern to States like California, because 
the access to water in your State is a serious issue as well. 
So I want to work with you in making this the first of perhaps 
many hearings we could have on this issue of water. And I 
appreciate the gentleman's comments very much.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Kucinich. I appreciate it. If there are no additional 
opening statements, the subcommittee will now receive testimony 
from the witnesses before us today.
    We will hear from Mr. Richard McFarland, who is a founding 
member of the McCloud Watershed Council, a nonprofit community-
based organization providing stewardship and advocacy for the 
McCloud River watershed in the Mount Shasta region of 
California. In addition to his advocacy, Mr. McFarland is 
president of Terra Mai, a pioneer in the green building 
movement, which uses recycled lumber for its building projects. 
He has also worked as a professional river guide and an 
expedition leader.
    Next we will hear from Ms. Terry--is it Swier?
    Ms. Swier. Yes.
    Mr. Kucinich. Ms. Swier is the founder and president of the 
Michigan Citizens for Water Conservation, a nonprofit, 
grassroots organization of over 1,900 members. Ms. Swier has 
helped educate State legislators and Members of Congress on the 
Nestle water issue, and has raised the public's awareness of 
the importance of water diversion and export. In addition to 
her environmental work, Ms. Swier recently retired after 30 
years as a university librarian.
    Next it will be Mr. Bill McCann. He serves on the board of 
directors of Save Our Groundwater and is chairman of the 
organization's Committee on Legislative and Governmental 
Issues. Founded in 2001 in response to a bottled water 
company's attempt to draw from a local aquifer, Save our 
Groundwater is a New Hampshire seacoast area citizens action 
organization dedicated to protecting water in the public trust. 
Mr. McCann has also been a New Hampshire State representative, 
where he served on the Resources, Recreation and Development 
Committee.
    And finally, Ms. Heidi Paul. Ms. Paul has been vice 
president of corporate affairs for Nestle Waters North America 
since 2000. Ms. Paul is responsible for all aspects of the 
company's corporate communications and community relations. 
Before taking this post in 2000, Ms. Paul was the director of 
brand management for Nestle Waters. She is also chairwoman of 
the Project WET, a not-for-profit organization involved with 
international water education.
    I want to thank each of the witnesses for appearing before 
our subcommittee today. And it is the policy of the Committee 
on Oversight and Government Reform to swear in all witnesses 
before they testify. I would ask that you rise and to raise 
your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that the witnesses 
answered in the affirmative.
    I ask that each of the witnesses now give a brief summary 
of their testimony and to keep their summary under 5 minutes in 
duration. I would like you to bear in mind that your complete 
written statement will be included in the record of the 
hearing.
    So let us begin with Mr. McFarland, if you would begin your 
testimony and address the Chair, we appreciate your presence 
here.

   STATEMENTS OF RICHARD MCFARLAND, FOUNDING MEMBER, MCCLOUD 
WATERSHED COUNCIL; TERRY SWIER, FOUNDER AND PRESIDENT, MICHIGAN 
CITIZENS FOR WATER CONSERVATION; BILL MCCANN, MEMBER, BOARD OF 
DIRECTORS, SAVE OUR GROUNDWATER; AND HEIDI PAUL, VICE PRESIDENT 
    OF CORPORATE AFFAIRS, NESTLE WATERS NORTH AMERICA, INC.

                 STATEMENT OF RICHARD MCFARLAND

    Mr. McFarland. Thank you, Chairman Kucinich.
    My name is Richard McFarland. My wife, Erika, and I settled 
in McCloud, CA, 20 years ago. We started a small reclaimed 
lumber business, which has grown considerably and is currently 
the largest private employer in our small town of 1,800. We 
started a family, and our three sons are also growing rapidly.
    McCloud sits at the base of 14,000-foot Mount Shasta, a 
dormant volcano that dominates the landscape in far northern 
California and draws visitors from around the world. Mount 
Shasta's glacier and snow melt feed the McCloud River, a 
hydrogeologically unique, crystal clear, ice cold stream, well 
known as a world class trout fishery. It is a major tributary 
of the Sacramento River, the backbone of California's public 
water system.
    McCloud is a former lumber company town. The McCloud 
Community Services District provide our de facto city 
government. We are blessed with a spring-fed municipal water 
supply that provides exceptional quality, untreated cold spring 
water to every tap in town.
    When I settled here in 1987, McCloud was economically 
depressed and was in a general state of disrepair. Most of the 
buildings downtown were dilapidated or boarded up. In the last 
two decades, there has been significant capital investment in 
McCloud. One old timer recently told me that the town has never 
looked better. To the objective visitor, McCloud would appear 
to be thriving.
    In the fall of 2003, during a public meeting, the 100-year 
contract selling our water to Nestle was both announced and 
approved. We had assumed that this hearing was going to be the 
beginning of a public process. In fact, it was the culmination 
of back room negotiations between Nestle and a few local 
politicians and public servants. This triggered a series of 
events: a 3-year lawsuit, which resulted in the contract being 
thrown out by our county superior court and later reinstated by 
an appellate court; Nestle serving harassing and intimidating 
subpoenas on local community members, including myself; a draft 
environmental impact report, environmental assessment that 
generated an astounding 4,000 comments, most of them opposed to 
the project; the development of the Siskiyou County Water 
Network and the Siskiyou County Protect Our Waters Coalition.
    The Mount Shasta area is already home to four other 
bottling plants already pumping unlimited groundwater. The 
scale of the proposed Nestle project raises serious concerns 
about cumulative impacts to Mount Shasta's unique volcanic 
ground and spring water systems. California lacks comprehensive 
statewide groundwater legislation. Sound policy requires that 
groundwater management be based on science.
    This is a State and national water policy issue. I 
respectfully request the following of the subcommittee:
    Please consider Federal support for State and local efforts 
to protect community water resources. Specifically helpful 
would be U.S. Geological Survey scientific inquiry to monitor 
and characterize Mount Shasta's ground and surface water 
resources. This is especially important in the face of 
potential climate change impacts on California's water supply.
    Please ensure that the U.S. Forest Service completes an 
environmental impact statement for the Nestle project in 
McCloud. The pipelines for the project travel through several 
miles of U.S. Forest Service land on public easements intended 
for municipal use.
    Please consider investigating the practices and impacts of 
Nestle and other large water bottlers in McCloud and other 
small rural communities around our country. Please consider 
enacting legislation or policies that protect the significant 
investment that taxpayers and ratepayers have made in our 
public water supply infrastructure from corporate exploitation.
    And finally, please consider investigating the negotiation 
process that led to the contract between the McCloud Community 
Services District and Nestle Waters North America. Thank you 
very much for hearing my testimony today.
    [The prepared statement of Mr. McFarland follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kucinich. Thank you, Mr. McFarland.
    Ms. Swier.

                    STATEMENT OF TERRY SWIER

    Ms. Swier. Yes. Thank you.
    It has been 7 years since the residents of Mecosta County, 
MI, were made aware of Nestle's plan to pump over 250 million 
gallons of spring water per year from a private hunting 
preserve, divert it through a 12-mile pipeline that crosses 
streams and wetlands to its plant, bottle it, and then truck it 
outside the Muskegon River watershed and the Great Lakes basin 
under the brand name Ice Mountain.
    As Nestle moved into Michigan to privatize our water for 
its own profit, it announced that there would be no adverse 
resource impact to the natural resources. Then, in December 
2000, about a hundred citizens met, and Michigan Citizens for 
Water Conservation [MCWC], a nonprofit, grassroots corporation, 
was formed.
    MCWC's mission is and has been to conserve, preserve and 
protect the waters and natural resources and public trust in 
those resources of Michigan and the Great Lakes. MCWC has grown 
to over 1,900 members and continues to work on water 
preservation and conservation issues with other organizations.
    MCWC began at the local level, asking our elected township 
officials to place a moratorium on the Nestle project to give 
us time to investigate and evaluate a proposal of this 
magnitude for the potential impact on neighboring wells, lakes, 
streams, wetlands, wildlife and the community's quality of 
life. Elected officials did not hear or listen to our voices. 
This eventually led MCWC to three petition drives on rezoning 
ordinances, and to three courts, the Mecosta County Circuit 
Court, the Michigan Court of Appeals and the Michigan Supreme 
Court.
    The findings of harm from Nestle's pumping remain intact 
and unaffected in all three courts. MCWC believed then, and it 
now has been proven, that irreparable harm would occur to the 
waterways due to pumping by Nestle at the Sanctuary Spring 
site. Nestle's pumping has caused harm to the Dead Stream by 
reducing the flow and level, narrowing the stream, exposing mud 
flats and restricting the enjoyment of many of the members of 
MCWC, and the public for fishing, boating and kayaking on the 
stream. The findings of fact are in the court records that 
Nestle's pumping has created and will continue into the future 
to create adverse impacts to riparian uses and rights.
    What will this ancient marsh watershed area, including 
Thompson Lake, be like for future generations? The lives of the 
1,900 members, including the plaintiffs, those who live on the 
Tri-Lakes, and mine, have changed since Nestle came to 
Michigan. The issue has pitted neighbor against neighbor, 
friendships have been severed, and Nestle has violated our 
lives either directly or indirectly with telephone polling, 
private investigators, the FBI coming to our homes, and a 
potential Strategic Lawsuit Against Public Participation, a 
SLAPP suit, against my son.
    MCWC has spent nearly a million dollars on the lawsuit 
against Nestle. We continue to hold fundraisers, such as bake 
sales and garage sales, to continue to pay our legal and 
environmental bills. Nestle has affected families emotionally, 
physically, mentally and financially. MCWC believes much of 
what it has done and stands for is supported by a majority of 
Michigan citizens.
    Michigan purports to be a good neighbor company to our 
area, yet it continued to pump at high rates during a low 
period of low participation and lower recharge. Even when 
bottom land and other dramatic impacts and damages to the Dead 
Stream, Thompson Lake and wetlands have occurred, Nestle has 
continued to pump. Nestle was cautioned by the trial judge that 
it proceed at its own risk in building its plant in Stanwood. 
True to form, Nestle pushed ahead in building its plant and 
continued to use the possible loss of jobs as ways to push 
through with its lobbyists in Lansing to get to the Governor 
and her staff and legislators to side with an international 
company and not the citizens.
    Water grabbers like Nestle undermine the interests of our 
sixth-generation residents who live on the lakes and streams; 
the public that fishes, boats, swims and enjoys our lakes and 
streams; farmers who rely on our groundwater; and industry and 
our economy that are so dependent on our water. Water is our 
heritage and our culture. It must be protected for our future 
generations. Thank you.
    [The prepared statement of Ms. Swier follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kucinich. Thank you very much.
    Mr. McCann.

                    STATEMENT OF BILL MCCANN

    Mr. McCann. Thank you, Mr. Chairman.
    Good afternoon. My name is Bill McCann, and I am a member 
of the Board of Directors of Save Our Groundwater, which is 
located in Barrington, NH. I am a resident of the adjoining 
city of Dover, the seventh oldest settlement in the United 
States, having been settled in 1623. And I am also a member of 
the Conservation Commission in Dover, as well as a former State 
representative.
    Last spring I submitted to this committee a document 
entitled an Analysis of the New Hampshire Department of 
Environmental Services Reversal from its previous denials of 
the Large Groundwater Permit for USA Springs on behalf of both 
Save Our Groundwater and a spin-off group called Neighborhood 
Guardians. I trust that at some point that will be entered into 
the record and the members of the committee will have an 
opportunity to review it. What transpired in Barrington was a 
private corporation coming into the community with the goal of 
extracting over 400,000 gallons of water a day. What 
transpired, and I can speak to this as someone who was involved 
when we passed New Hampshire's law, was the first 
implementation of RSA 485-C, which was New Hampshire's 
Groundwater Protection Act. And this was by far the largest 
withdrawal that came under the jurisdiction of this law. And I 
and other citizens in the area watched very carefully to see 
what was happening, because we thought the groundwater would be 
protected. What we saw was our State government and some 
Federal agencies not implement what we had anticipated. We had 
expected that there would be protections for the environment, 
protections for prime wetlands, protections for the people who 
live in the area.
    Barrington and Nottingham are located in the southeast 
portion of New Hampshire equal distance from Concord and 
Portsmouth. All of their households rely on private wells for 
all their potable water. There is no town water system. These 
communities, like Dover, are old. Both were settled around 1719 
to 1722. They have a rural nature. They try to work hard to 
protect their citizens. A total of about 11,000 people live in 
the two communities. What happened in this instance was a 
failure by State government and Federal agencies to protect the 
groundwater.
    This company, as I said, a privately held company whose 
business plan said they are going to bottle this water and ship 
it overseas--in other words, take it out of the aquifer, have 
no impact, there will be no recharge in New Hampshire. It will 
have a definite impact on the quality of surface waters. The 
Lamprey River, which is nearby, is a federally protected water 
basin.
    So we anticipated that between our State government and our 
Federal Government that steps would be taken to protect. At 
first it seemed to work. The permit was denied in 2003. It was 
denied a second time later in 2003. But then they reapplied for 
a new permit at the end of 2003, and 6 months later, the permit 
was conditionally approved. I can tell you from firsthand 
experience, a lot of people in the area of the southeastern 
portion of New Hampshire became very disenfranchised with what 
government was doing to protect their precious water resource. 
They expect, and they still do expect that the State government 
or the Federal Government or some combination of the two will 
work to protect the aquifer and the water resources in our 
State, and hopefully in other States, because I am sure, as we 
have heard from these other witnesses, we are not the only ones 
impacted.
    We are impacted because we don't know right now when this 
plant will start operation. There are people who are concerned 
that when that plant starts to operate, they are going to get 
up in the morning and find they don't have water. They don't 
have any reassurance from our Department of Environmental 
Services or from the Army Corps of Engineers or any other 
Federal agency like EPA that there is protection in place for 
this possibility. So they are very concerned that this 
particular situation with USA Springs, as I said, a privately 
held company, we don't know what will transpire once the plant 
is built. They are in the process of doing it. They are 
building the plant even though they have not received final 
approvals on their wetlands permits and there are appeals 
pending. The only thing they have used for their basis to 
continue moving forward is they did get a Supreme Court case to 
go their way in 2006.
    But when the State issued the permit, there were 10 
conditions. They haven't been met yet. And I hope that this 
committee can take a look at the situation and maybe be able to 
assist the people of New Hampshire, as well as the rest of the 
country, from having problems like this in the future. Thank 
you.
    [The prepared statement of Mr. McCann follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kucinich. Thank you very much, Mr. McCann.
    Ms. Paul.

                    STATEMENT OF HEIDI PAUL

    Ms. Paul. Hello, Chairman Kucinich. Thank you for the 
opportunity to appear before the subcommittee today. My name is 
Heidi Paul. I am vice president of corporate affairs of Nestle 
Waters North America.
    Nestle Waters bottles and sells 15 regional brands of 
bottled water, including Deer Park and Poland Spring. We employ 
9,000 employees in North America, and we have plants in 21 
communities in the United States and two in Canada. We have 
been invited today to testify about the environmental effects 
of bottled water on groundwater and our operations in 
communities. Bottled water represents 0.02 percent of 
groundwater used. As a company, our use is sensitive to the 
environment and very efficient. We bottle a very healthy 
beverage. Not including bottled water, there are close to 
75,000 different types and sizes of containerized beverages for 
sale in America. Most have calories, coloring, chemicals, 
alcohol or caffeine. In 2006 alone, Americans avoided 356 
billion calories because they switched from soft drinks to 
bottled water.
    Today Americans consume twice the amount of calories from 
beverages as they did a generation ago. Childhood obesity is up 
370 percent in the last 30 years. And at this rate, 25 percent 
of our children and 75 percent of our adults will be overweight 
or obese by 2015. Part of the solution to this epidemic is to 
drink more water, tap or bottled.
    And bottled water has another important social role. For 
those who have ever lived through a natural disaster or other 
interruption of water service, including the hurricanes in 
Florida, ice storms in Maine, 9/11, Katrina, wildfires in 
California, floods in the Midwest, bottled water is the safety 
net to the most critical need of all, potable drinking water. 
Bottled water is also easier on the environment than any of 
these other beverages. It uses less water, and it uses less 
plastic.
    And when it comes to collecting and bottling spring water, 
Nestle Waters has an inherent interest in being a steward of a 
healthy environment at our spring sites. Our spring sources and 
the facilities that use them represent our most valuable 
investment. And using springs in a responsible manner today is 
the only way to ensure our continued success. Moreover, we 
select only those sites with a safe and sustainable yield, 
measuring any effects of our withdrawal, and understanding the 
cumulative impacts of all water users and a shared supply.
    It is appropriate that communities would have questions and 
concerns about our water use and other impacts on the 
community's quality of life, both in terms of opportunities, 
like jobs, and challenges, like truck traffic. For example, in 
Michigan, there are concerns about the water use impact. In 
fact, it went to court, as Ms. Swier mentioned. Michigan courts 
ruled that bottled water is a proper and beneficial use of 
water in Michigan, and the company has the right to withdraw 
water at an appropriate rate determined under the State's 
reasonable use balancing test. Following the Court of Appeals 
ruling, the company and project opponents engaged in mediated 
negotiations to determine the allowable rate of water use. Data 
reflects that this is a very safe level.
    In McCloud, CA, we are in the middle of a comprehensive 
environmental and community-based regulatory process. In 
response to concerns, we are engaged with environmental groups, 
concerned citizens, together with third-party science experts 
in biology and hydrology from the University of California, 
Davis. The goal is to get increased information on the 
sustainable and safe water use levels for the project. There 
remain open questions on the economic benefits to the town and 
other impacts. There are materials provided that address some 
of these concerns. We plan to meet with all stakeholders to 
discuss the economic reports that have just come out, and gain 
a greater understanding of concerns and different points of 
view. We respect differences and try to address concerns 
through a variety of actions, but there are also times when we 
have not been as successful. And we are learning in those 
places and are open to work with stakeholders to do this in a 
better way that is open and transparent.
    We also have a responsibility to the environment. My 
company has supported and will continue to support 
comprehensive science-based laws and policies regulating water 
withdrawals. The goals must be long-term sustainability, 
fairness for all water users, openness to public input in order 
to provide a responsible framework for decisionmaking. For 
example, in Maine, New Hampshire and Michigan, we have 
supported recent legislation that meets these standards. Thank 
you for your time and attention.
    [The prepared statement of Ms. Paul follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kucinich. Thank you very much, Ms. Paul. I would like 
to begin by asking Mr. McFarland--and I may ask the same 
question of Ms. Swier--in McCloud, did Nestle hold any public 
hearings before you signed the contract with the municipality? 
And how many public meetings has Nestle--before the contract 
was signed with the municipality, and how many public meetings 
has Nestle held since the signing of the contract?
    Mr. McFarland. There was one public meeting that the 
contract was discussed. And that was the same public meeting 
that the contract was approved.
    Mr. Kucinich. So since the signing of the contract----
    Mr. McFarland. Since the signing of the contract, I believe 
that Nestle has held two or three public meetings in the 
community. And they have been--they have been designed to--they 
were public relations events.
    Mr. Kucinich. What do you mean by that?
    Mr. McFarland. They touted all the benefits of the project 
and didn't really discuss any of the potential negative 
impacts.
    Mr. Kucinich. Did the general community have an opportunity 
to participate in designing the plant?
    Mr. McFarland. None.
    Mr. Kucinich. Where it was located?
    Mr. McFarland. No.
    Mr. Kucinich. What about in Michigan?
    Ms. Swier. The same in Michigan.
    Mr. Kucinich. If you could turn the----
    Ms. Swier. I turned it on.
    Mr. Kucinich. Thank you.
    Ms. Swier.
    Ms. Swier. Yes. No, in Michigan either.
    Mr. Kucinich. No to what? No participation in designing the 
plant, where it was located?
    Ms. Swier. No.
    Mr. Kucinich. What about, did Nestle hold any public 
meetings before the contract was signed with the municipality?
    Ms. Swier. We are not a municipality.
    Mr. Kucinich. With the area?
    Ms. Swier. Pardon?
    Mr. Kucinich. With your community. Was there any public--
were there any public meetings before the contract was signed?
    Ms. Swier. The contract was signed with a private property 
owner.
    Mr. Kucinich. And were there any public meetings before 
that?
    Ms. Swier. I knew of two public meetings before. No, not 
before, not before--I am sorry, not before we found out about 
Nestle coming into Mecosta.
    Mr. Kucinich. OK. And since the signing of the contract, 
were there meetings?
    Ms. Swier. Yes, there have been meetings.
    Mr. Kucinich. And what was the nature of those meetings?
    Ms. Swier. The nature of the meetings were Nestle would get 
up and speak to the audience of what a good neighbor they 
were--that it was going to be and that there would be no 
adverse resource impact.
    Mr. Kucinich. And were you there present to respond, or 
were there people from the community that responded, or was it 
pretty much accepted that what Nestle said was true?
    Ms. Swier. No, there were people at the meetings, like 
myself, that were able to get up and ask questions.
    Mr. Kucinich. Mr. McCann, in your opinion, what would be 
the effects upon your community of the proposed water bottling 
plant?
    Mr. McCann. Well, clearly the major impact is the unknown 
factor of what will be the impact on everyone else in the area. 
You are talking 307,000 gallons of water a day. You are looking 
at wells that are--that are considerably less deep than what 
has been proposed. So the impact on those wells is the unknown. 
And those were the questions that were asked at the public 
hearings that the State had.
    Mr. Kucinich. Do you think it would be possible for the 
bottling plant to exist without causing the kind of 
consequences you are talking about?
    Mr. McCann. I don't believe so, no. I think that the 
situation is such that, without a thorough scientific review 
ahead of time, but here you have a company that owned the land 
and just decided this is where we are going to do it.
    Mr. Kucinich. To your knowledge, has there been any 
thorough scientific review?
    Mr. McCann. There has been some scientific review done by 
both the company and by one of the towns involved, and they 
aren't in agreement. The State becomes, I guess you would say, 
the mediator. And the final decision is the State's of whether 
or not to grant the permit.
    Mr. Kucinich. Does the company show an interest, Mr. 
McCann, in being responsive to the community's concerns?
    Mr. McCann. No. Unfortunately, the company took the 
attitude from day one that it was their land; they could do 
what they want. They--beginning back in 2000, they actually 
went in and disturbed some of the wetlands without a permit. 
This is the way it started. And this is what had the people 
concerned. And their attitude throughout the whole process has 
been, ``You people shouldn't be out here bothering us. You 
shouldn't be complaining. We are going to provide jobs. We are 
going to provide--increase the tax base.'' So they had a very 
negative view of public input.
    Mr. Kucinich. Do you feel existing laws and regulations are 
sufficient to prevent those consequences even if the company is 
not willing to prevent them on their own?
    Mr. McCann. Well, as I said in my opening statement, I 
thought what we had done in 1998 to protect the environment 
seemed on the surface to work good, but in actual operation, 
no, I would say now that the State and Federal laws failed.
    Mr. Kucinich. In your written testimony you criticize 
Governor Lynch for his role in the permitting process. What 
should he have done differently in your opinion?
    Mr. McCann. I wouldn't say I was being necessarily 
critical. I just think that the reality is the Governor could 
have probably come in sooner and maybe worked with EPA and the 
Army Corps of Engineers instead of waiting until 2005. I think 
that what he has tried to do was thwarted by what had been done 
by his predecessor, who made sure that DES was, quoting as he 
said in one of his speeches, ``more business-friendly.'' I 
think that the Governor had some difficulties that were not his 
fault, but he also had a situation where I think he could have 
acted sooner, but he didn't.
    Mr. Kucinich. You criticize the role of the Army Corps of 
Engineers. What should they have done differently?
    Mr. McCann. As I understand the request from the Governor 
to them, they were supposed to evaluate the information 
provided by the applicant, USA Springs, the State and the 
scientific data that I mentioned earlier that was provided by 
the Town of Nottingham and the consultant Nottingham had. In 
reviewing what they issued in August 2006, they basically took 
the information provided by the applicant and accepted it as a 
fact.
    Mr. Kucinich. I am going to return to the questioning in a 
moment. The Chair is going to recognize the distinguished 
Member from California, Congresswoman Diane Watson, for a round 
of questions.
    Congresswoman.
    Ms. Watson. I want to thank you, Mr. Chairman, for holding 
what I feel is a very important meeting, and very sensitive and 
relevant to our climatic conditions and what is happening 
today. The consumption of water is increasing at a rapid rate. 
And in the year 2002, Americans consumed 6,018 million gallons 
of bottled water. And I think I did most of that consumption 
myself. The United States, as well as the global population, is 
putting the strain on existing water supplies. And that is 
putting a strain on our existing supplies of groundwater and 
surface water.
    And the bottling industry is currently seeking to extract 
more water from rural areas to meet this growing demand. And I 
understand some of the water companies are taking the water in 
their city and bottling it and selling it in stores. And so 
there is a double profit there. But I am very, very concerned 
in the way the process is being done, not only our drinking 
water but our purification of water. And you might be aware 
that along the southern coast of California, we have a great 
deal of mercury in our water. And it has contaminated the sea 
life and particularly gotten into our fish life, particularly 
tuna, and we warn our citizens to not eat tuna off the western 
coast of California.
    So I understand that water that is extracted from ancient 
sources, and once that water has been depleted, it is gone 
forever. I missed the first part of the hearing, Mr. Chairman, 
but I don't know if the witnesses are from areas where there 
are ancient sources of water. And as you were speaking, I 
thought maybe you could tell us what we need to do to protect 
those sources and particularly now when we are in drought in 
California. And we have our water up in the northern part of 
our State. And we had talked at one time about a peripheral 
canal with the water from the north in the deltas could come 
down to southern California into our desert. But what can we 
do, and should we regulate the way groundwater is extracted and 
how much could be extracted? And should these fields be left 
alone for a while so groundwater could accumulate? That would 
take millions of years in California because we don't get much 
rain truly. But let me just start and go down the panel. What 
would you have us do here in Washington to protect that 
groundwater from ancient sources?
    Let me start with Mr. McFarland.
    Mr. McFarland. Thank you very much. As I said in my opening 
testimony----
    Ms. Watson. That I missed.
    Mr. McFarland. Yeah, one thing that I think that is really 
critical, and you talk about ancient groundwater, and one 
thing, I am from Mount Shasta in far northern California, and I 
requested that this committee, the subcommittee, encourage U.S. 
Geological Survey scientific inquiry to monitor and 
characterize Mount Shasta's ground and surface water resources. 
This is especially important in the face of potential climate 
change impacts on California's water supply. So what it gets 
down to is good science. And I think that we don't really know 
whether the water that Nestle is proposing to bottle in McCloud 
is ancient water, or if it is water from last year, or if it is 
water from 10 years ago. And I think it really points to the 
need for really good U.S. Geological Survey studies of these 
aquifers before we start drawing them down.
    Ms. Watson. Thank you.
    Mr. McFarland. Thank you.
    Ms. Watson. Ms. Swier.
    Ms. Swier. I agree with Mr. McFarland on his proposals 
also. Also, I think that there needs to be a protection of 
Federal and State wetland laws from water extraction and 
diversion for export. And all water bottlers must meet 
standards to be set by the courts and the State law, including 
the no likely pollution impairment or destruction standard of 
Michigan's well-respected Michigan Environmental Protection 
Act, and an amendment to the Federal Water Resource Development 
Act to provide interested citizens with the right to enforce by 
citizen suits.
    Ms. Watson. Thank you.
    Ms. Swier. Thank you.
    Ms. Watson. Mr. McCann.
    Mr. McCann. I would agree with what has been said earlier, 
and I think that the important thing is the Federal 
Government's role should be to help bring, through the 
geological information that has been talked about, the facts to 
the situation when we have developments proposed like was in 
New Hampshire or what has happened in Michigan or California. I 
found from my own experience that we don't know the science of 
the aquifers. And a consultant for a company can come in and 
say, ``Oh, there is tons of water here; we don't need to worry 
about the impact,'' and there is no scientific backing for 
that. And I think the Federal Government's role would be to 
help provide that data so that both parties could sit down and 
look at what an aquifer--what the impact may really be. And so 
I would support what has been said by the two previous 
speakers.
    Ms. Watson. Should that be the responsibility of EPA?
    Mr. McCann. I would think EPA or the Department of Interior 
or both. I mean, the Department of Interior has some of the 
records because they have designated, like I mentioned in my 
testimony earlier, one of the rivers that could be impacted in 
the New Hampshire case, the Lamprey River, is a wild and scenic 
river. It is so designated by the Department of Interior. So I 
would think that a combination of the Department of Interior 
and the EPA would probably have the best data.
    Ms. Watson. Thank you.
    Ms. Paul.
    Ms. Paul. I first want to clarify that we don't use any 
ancient waters that are not replenishable. One hundred percent 
of our water use is from replenishable sources.
    As far as the Federal role, I think we support the Linder 
bill, which would say that we need a commission to look at 
water needs for the next 50 years and what information can be 
provided, for example, from the USGS to inform the decisions at 
the State level.
    Ms. Watson. I kind of like that idea, Mr. Chairman. Maybe 
we are looking at a different organization to develop 
standards, and let States--and we have Cal. EPA in California. 
Water is our big issue. And I think, State by State, we ought 
to require them to have their own standards, their own 
organization that deals with water, and plan for the next 
hundred years or so. Thank you so much, panel. I appreciate 
your input.
    Mr. Kucinich. I thank the gentle lady for her questions.
    To Ms. Paul, in your testimony, you represent yourself as a 
trustworthy steward of the environment. Absent a court order or 
other legal requirement, if local people in a community bring 
to your attention significant adverse environmental impacts 
from your pumping operations, such as low stream flows, would 
your company be willing to reduce or to stop pumping?
    Ms. Paul. We base all of our pumping decisions on the 
science that says what is a sustainable use. So if the science 
was showing it was not a sustainable use, yes, we would cut 
back.
    Mr. Kucinich. OK. Well, if that is the case, and I take it 
as you say it is what you believe, this subcommittee has been 
informed that your company continued to pump from its Stanwood 
plant in Michigan in the summer months this year even when 
presented with photographic evidence that clearly show the flow 
levels in the stream-fed Dead Stream were dangerously low. We 
have a photo that was supplied to us by attorneys for MCWC that 
appears to show the Dead Stream living up to its name. Now, I 
would like you to look at the picture there, which represents 
the low flow levels of the Dead Stream. We have also been 
informed that while Nestle's pumping may have been technically 
in compliance with a court order, this court order was only in 
place pending remand to a trial court after MCWC won its court 
case in order to determine safe pumping levels. Now, did Nestle 
see these photos? Have you ever seen these photos?
    Ms. Paul. I have never seen that photo.
    Mr. Kucinich. Have you ever seen any photos similar to 
that? Have you seen any photos of the Dead Stream?
    Ms. Paul. Let me say, I think the question that is being 
raised here is I think those might be the mud flats? Are those 
the mud flats? Well, I guess I can't--so this is what I know.
    Mr. Kucinich. This represents a picture taken of the Dead 
Stream.
    Ms. Paul. There are low flows and high flows of water 
bodies naturally occurring. And just because there is a low 
flow----
    Mr. Kucinich. So you are maintaining that this was a 
naturally occurring low flow. Is that your position?
    Ms. Paul. My position is that there is no harm to the 
environment, that there are naturally higher and lower flows, 
that this is affected by dams built by beavers, by many things; 
that the mud flats--when they show are a feature that has 
resulted from a dredging, a historic dredging, and is the 
natural sediment coming back to replace the dredged amount, the 
dredged soils.
    Mr. Kucinich. So again----
    Ms. Paul. So no harmful impact from our use. I do agree 
with that statement.
    Mr. Kucinich. And that is based on science. Is that 
correct?
    Ms. Paul. Yes. Yes, it is.
    Mr. Kucinich. And so it is either--now, that position that 
you have offered, is that the result of scientific studies that 
you have had done, or is it only your study, or is it a 
consensus of a number of scientific studies that have been 
done? And do you have those studies to make them available to 
the committee?
    Ms. Paul. We do have studies, and we would be happy to make 
them available.
    Mr. Kucinich. But is it one study that you have done or are 
there other studies? Are there studies that are independent of 
your studies?
    Ms. Paul. I know of no independent studies, but I am happy 
to share our studies.
    Mr. Kucinich. Do you have any kind of knowledge of any 
scientific opinion that disagrees with your characterization?
    Ms. Paul. What I can say to that is there were in the 
original lower court some models created of what would be, 
could be, the impact of our use. That would be information that 
is different than what we have seen when we have actually used 
the water source.
    Mr. Kucinich. Now, Ms. Paul, it is my understanding that 
the source of the groundwater in McCloud is partly from a 
glacier. How is Nestle going to address the restriction on 
water supply over the next hundred years with climate change, 
which potentially will change the amount of water flows from 
your source given that your source is glacier-fed?
    Ms. Paul. We have a permitted amount that we are planning 
to use. If there were any harm of that use, we would cut back. 
The amount--I feel compelled to give a little history here, but 
maybe I shouldn't. McCloud came to us asking for our interest 
in coming to the area to build a bottling water plant. The 
reason being, it was a town, a lumber town built that was in 
decline. And today, in the school built for 250, there are 
eight students. It is my understanding that there is not--they 
are not able to afford an ambulance driver in the day. It is a 
community that is looking for opportunity, for more jobs. They 
are looking for a light industry. They had a water use of the 
lumber mill prior that they wanted to allow that water to be 
put to good use. And the contract to which you referred 
earlier, there were four meetings, public meetings on that 
contract.
    Mr. Kucinich. Has Nestle ever had any meetings with the 
Garrison Place Real Estate Investment Trust and/or Francesco 
Rotondo, trustee, doing business as USA Springs, Inc.?
    Ms. Paul. No, not to my knowledge.
    Mr. Kucinich. Do you know if there was any contact that any 
of those entities have had with Nestle?
    Ms. Paul. Not to my knowledge.
    Mr. Kucinich. Do you know if Nestle either offered or 
received a request to engage in a business transaction with any 
of those entities----
    Ms. Paul. Not to my knowledge.
    Mr. Kucinich [continuing]. Relative to the Barrington-
Nottingham----
    Ms. Paul. I don't believe we have any connection, any 
dialog.
    Mr. Kucinich. Has Nestle done any site characterization of 
that area at any time or engaged in any discussions with any 
principal or representative relative to the siting of a water 
bottling plant or business transactions subsequent to that in 
New Hampshire?
    Ms. Paul. Anywhere in New Hampshire?
    Mr. Kucinich. In that area, at Nottingham and Barrington.
    Ms. Paul. Not to my knowledge.
    Mr. Kucinich. Any other place in New Hampshire?
    Ms. Paul. We look for spring sites in many States, and we 
have likely looked in New Hampshire.
    Mr. Kucinich. But you don't know; you have never heard of 
Mr. Francesco Rotondo?
    Ms. Paul. No, I have had no contact with him.
    Mr. Kucinich. Or USA Springs, Inc.?
    Ms. Paul. I have heard of them. I don't know them.
    Mr. Kucinich. Has it been Nestle's practice over the period 
of time, given the large share that you have in the bottled 
water market, to acquire bottling companies or bottling 
interests or to lease or to purchase any assets that relate to 
water bottling and the acquisition of the water that the 
bottling plants use?
    Ms. Paul. Yes, we sometimes do buy those rights or the 
business from others, yes.
    Mr. Kucinich. How many, in how many instances have you done 
that? Is it rare, or is that the way your business grows?
    Ms. Paul. I would say it is neither rare nor how the 
business grows, but it is a way; it is one of many ways. If you 
would like me to find out the details of that, I would be happy 
to offer it in written testimony.
    Mr. Kucinich. Yes, I would also like you to provide this 
committee, since you expressed that you didn't know, any kinds 
of documents that you have relating directly or indirectly to 
the Nottingham-Barringtonsite that relates to the Garrison 
Place Real Estate Investment Trust, Francesco Rotondo, USA 
Springs, any discussions, memoranda, e-mails, letters that 
relate to contact relative to that site or to the principals 
who are involved in that site. If you would do that, this 
committee would appreciate it.
    Ms. Paul. We will do that.
    Mr. Kucinich. Thank you very much. I want to--my time has 
expired I have been informed. And the gentle lady from 
California is recognized.
    Ms. Watson. I would like to give you my time, Mr. Chairman, 
so you can continue your line of questioning.
    Mr. Kucinich. I want to thank the gentle lady.
    I want to go back to Mr. McCann. Mr. McCann, in your 
testimony you alleged specific failings in the enforcement of 
the New Hampshire and the Federal laws with respect to the 
siting of a water bottling plant in your community. To what do 
you attribute these failings? Are the laws adequate, or do they 
clearly prescribe the environmental safeguards that must be 
followed? And if it is a question of inadequate enforcement, to 
what do you attribute this laxity?
    Mr. McCann. I think, as I said earlier, it is the law as 
written perhaps can provide some public protection. The 
implementation needs to be improved. The Federal role was, to 
put it mildly, I think very vague to people in the first year 
or two of this project. The environmental--Department of 
Environmental Services' role was to be fair. I think they were 
overwhelmed with the fact that this company wanted to take this 
water out and didn't appear to have all the scientific data 
that DES had looked for and that people like myself were asking 
for. So I think that it was, as I mentioned in my earlier 
testimony, this was the first test of our State law. I think 
the report card is still mixed. It is probably in the vicinity 
of C-minus. And most of that might be as a result of poor 
administration by the agencies involved, not necessarily poor 
writing of the law. But I don't deny that there is perhaps room 
for improvement in correcting what we have seen in the first 10 
years of that law.
    Mr. Kucinich. I had asked Ms. Paul, whose presence we are 
grateful for, a series of questions. Is there any question that 
I should have asked that I didn't ask relative to the issues 
that relate to the community that you are here on behalf of?
    Mr. McCann. As far as the connection with the----
    Mr. Kucinich. I am just saying, are there any questions 
that I did not ask that you think should have been asked?
    Mr. McCann. I can't think of any, Mr. Chairman. I think you 
did a thorough job.
    Mr. Kucinich. OK. Let us go down the line here, starting 
with Mr. McFarland. Water bottlers often choose relatively 
remote or rural areas for bottling or pumping sites, and will 
often seek access to watersources that are located in protected 
natural areas, areas that are protected either because of their 
intrinsic natural value or because of their relative ecological 
fragility. How do you think this committee should weigh the 
economic value of the industry of the water that is extracted 
and bottled versus the ecological value of protecting the 
delicate balance of these areas?
    Mr. McFarland. I think they should use good economic 
analysis and look at the true costs versus benefits of all of 
the resources in the area. And you know, I think that the 
subcommittee understands that there is economic value to the 
water for downstream uses. Not only is it of economic value 
to--in terms of commerce, direct commerce. So I think that the 
science of economics today looks at the other value of those 
resources aside from just the pure, you know, dollar value of 
the resource put into a bottle.
    Mr. Kucinich. Thank you.
    Ms. Swier.
    Ms. Swier. Yes. I am from Michigan, which you know, and we 
are living--I live in an economically depressed area. And I do 
feel that we have to look at the economic picture. And when 
Nestle came into our area, that was one of the major draws that 
Nestle had said of coming into Mecosta County. But we also, as 
residents of my area, this is our livelihood. I am surrounded 
by lakes. I happen to live on a lake myself. And this is one 
of--the water is our heritage. And I feel that it needs to take 
into effect what the effect is going to be in the area. And 
with more scientific data available, MCWC has hired a 
hydrologist. And he is continually looking at what the harm is 
to our area, to our natural resources, which a good one was, 
you know, the one that you had there. And I live just 5 miles 
from the Dead Stream.
    Mr. Kucinich. Could that have been--that low water level, 
could that have been caused by beavers?
    Ms. Swier. There had been beavers there on and off for 
years. The people who live on the Dead Stream have never----
    Mr. Kucinich. Is that a yes or a no? I mean, could that 
have been caused by beavers?
    Ms. Swier. Yes. Yes, it can be caused by beavers.
    Mr. Kucinich. And in this case, do you think that it was 
caused by beavers?
    Ms. Swier. I can't answer that. I do not know.
    Mr. Kucinich. OK. Thank you.
    Mr. McCann, do you want to comment as to the fact that 
these water bottlers are choosing relatively remote and rural 
areas for bottling or pumping sites and often seek access to 
water sources that are located in protected natural areas? And 
how do you think this committee should weigh the economic value 
of the industry versus the ecological value of protecting the 
delicate balance in these areas and also the access to water 
for civilian populations?
    Mr. McCann. I think that, clearly in the past, in the 
instance especially in Barrington and Nottingham, but I read 
about, you know, other companies, obviously the economic value 
of a proposed development is part of the process to quote-
unquote sell it to the community. And if a community has had 
hard economic times, it is clearly one mechanism they can use 
to try to come in.
    I think the Federal legislation and the ideas that have 
been put forward by Mr. McFarland make sense. I think we need 
to have a level playing field, which means we try to, as I said 
earlier, balance the scientific data, but we also work to try 
to have equal opportunity for development but also at the same 
time recognizing, as you said, that we have a very delicate 
balance. And if there is a reason for the government to become 
more involved, I think it is to protect the environment and to 
ensure that a well-regulated industry is working. But it 
shouldn't be at the deprivation of the environment or the 
people who live in the community.
    Mr. Kucinich. Out of fairness, Ms. Paul, do you want to 
respond?
    Ms. Paul. Yes. Thank you. Everything is made with water. 
Everything. In fact, our bottle--the biggest user of water is 
the plastic bottle--which is the lightest weight plastic bottle 
on the market, as I mentioned; it is less than a half an ounce. 
So think of anything made of plastic that is greater than half 
an ounce; it is made with more water. We are a very visible 
user of water, but we are not a very large user of water on the 
global scale or on the U.S. scale or on our region's scale.
    On a particular site, we do two things. We pick sites where 
our use can be sustainable, and then we monitor that use.
    Mr. Kucinich. What about the environmental effects? Do you 
consider those at all times, the ecological effects of what you 
do?
    Ms. Paul. Yes, we do. I think we are a model water user.
    Mr. Kucinich. Thank you very much.
    I want to thank the members of the panel for responding.
    I am going to recognize Mr. Issa. And I want to say that 
our clock for some reason always stays on green.
    Mr. Issa. Which is looking better all the time right now.
    Mr. Kucinich. Which is good. OK.
    Mr. Issa. Thank you, Mr. Chairman.
    A lot of the questions that needed to be asked, you asked. 
And so I will try to do followups mostly.
    Ms. Paul, do you produce, does Nestle produce beer?
    Ms. Paul. No.
    Mr. Issa. Do you produce soft drinks?
    Ms. Paul. No. Well, define soft drinks. We do have----
    Mr. Issa. Pepsi, Coca-Cola type products?
    Ms. Paul. No.
    Mr. Issa. OK. Now are these figures in your estimation 
accurate, that bottled water consumes about 1.3 gallons per 
gallon of water delivered, while soft drinks consume about 1.7 
gallons per gallon delivered, and beer consumes about 2.1 
gallons for every gallon delivered? Do those figures ring a 
bell to you from your history?
    Ms. Paul. My history would say that our company uses 1.3; 
that carbonated soft drinks, for just processing, uses 3, not 
counting the water to process the ingredients or the water to 
grow the ingredients; and beer is more like 9 gallons, not 
counting the growing and the processing of the ingredients.
    Mr. Issa. Right. Because they have to boil the hops and all 
the----
    Ms. Paul. It is distillation.
    Mr. Issa. I apologize for the low figures. I chose the 
lowest of all of them I could get just because I love Anheuser-
Busch, and I am a beer drinker from time to time. So I didn't 
want to do anything adverse.
    Mr. Kucinich. Let the record stipulate.
    Mr. Issa. But as a Californian, I love my wine, too, let us 
not kid that. But I am a Californian. Let me understand this. 
If you are a typical crop producer, for every gallon of water 
you pump out--let me rephrase that--for every 10 gallons you 
pump out, 8 gallons are going to evaporate. Basically, nothing 
is going to deplete the groundwater table as much as, for 
example, our rice production in northern California. By 
definition, we are spraying water out and asking it to please 
evaporate in a 100-degree Sacramento day. Is there anyone--Mr. 
McFarland, you know, you have seen that. That is essentially 
how we grow rice is you spread water over it and ask it to 
please evaporate.
    Mr. McFarland. Absolutely.
    Mr. Issa. So although today we are talking about the 
bottled water industry, and clearly you concentrate your taking 
from one area, wherever your plant is, we have in California 
and around the country, but particularly California where we 
don't have the Great Lakes, which my understanding the Great 
Lakes are basically a river with some big puddles in them, that 
every bit of water--if we took every bit of water out of the 
Great Lakes today, in a matter of 2 years, they would 
essentially refill. I know there is a gentleman shaking his 
head no, but I am a Clevelander. I remember when the Great 
Lakes were dead, and it took less than a decade for them to 
come back to life because they flow completely through every 
couple of years. We don't have that in California.
    So, Mr. McFarland, excluding the fact that I clearly 
understand how you are personally affected and your water table 
is affected, don't we have a national problem of groundwater, 
ground table, aquifer management? Wouldn't you say that you are 
picking out this particular point because it is in your 
backyard, but you would agree that we have throughout 
California and the Nation a question of, how are we managing 
groundwater?
    Mr. McFarland. Yes.
    Mr. Issa. And I think although you are not in agriculture, 
you shook your head yes like most of us as Californians, we 
understand that agriculture, clearly needed, is the biggest 
consumer, because of the fact that we spill it on the ground, 
of water that doesn't get back into the water table.
    Mr. McFarland. Absolutely. And I believe that if Nestle was 
paying as much in McCloud as the rice farmers pay for their 
water in Colusa, that there would be less opposition to it in 
McCloud.
    Mr. Issa. Well, and I am a businessman, so I understand a 
problem is something money can't solve. It does sound like 
money could solve this one.
    Mr. McFarland. It could solve part of the problem here. 
Part of the big problem here is that this is an outrageously 
egregious contract. It is very unfair to the community of 
McCloud.
    Mr. Issa. The price.
    Mr. McFarland. The price.
    Mr. Issa. The price they are paying for the water.
    Mr. McFarland. They are stealing it.
    Mr. Issa. As a southern Californian, remember, I opened up 
with all northern Californians think southern California 
steals. But I get your point that it is a question of how much 
money is being spent for the resource that is being taken from 
your region. I am a Federalist. I believe the Federal 
Government only has the right to do what it implicitly has the 
right to do. Other than ensuring Federal access to navigable 
waterways, the national fisheries and the Clean Water Act, 
other than those, do any of you know a legitimate existing 
Federal hook that we can take? I mean, and those three are big. 
We do have a right to make sure that Nestle or anyone else is 
not taking water in a way that pollutes somebody else's water. 
We have to make sure that the 0.3 gallons that don't go into 
the bottle don't end up being backflushed in some way. And we 
all know some of the history of that. But are there any other 
hooks that we should really be aware of that exist today 
beyond--because we primarily make sure that agencies are doing 
their job. That is one of the biggest things we do on this 
committee. So are those three the big three that we should be 
looking at as we are going through this problem not just of a 
particular bottling operation or two, but groundwater and safe 
drinking water?
    Mr. McFarland. Boy, that is a question that is out of my 
league.
    Mr. Issa. But those thing three ring a bill, and you are 
comfortable----
    Mr. McFarland. Yeah, the navigable waterways thing, that 
comes up as definitely potentially applicable here.
    Mr. Issa. We can certainly make sure the Corps of Engineers 
ensured that not so much water was taken from any source as to 
adversely affect navigable waterways.
    Any of the rest of you have anything I've missed? Because 
when this hearing is over and any subsequent hearings, that's 
what we have to look at, is can we make agencies do their jobs 
better. And something the chairman and I try to do whenever 
possible is make the agencies do their jobs without 
legislation.
    Ms. Paul, you know, you're obviously the subject of a lot 
of this because of your company's operations. You mentioned 
your stewardship of the environment and how you make sure--or 
you said that what you take is sustainable. In the case of the 
Mount Shasta operation, could you go through the 
sustainability, in your company's opinion, the environmental 
impact and how you reached the decision for how much you can, 
individually and with the other companies already operating 
there, collectively take out of the aquifer or the groundwater?
    Ms. Paul. Yes. We're still in the middle of that regulatory 
process. We signed the contract, which we actually pay more for 
the water than any other users. And it is reliant on meeting 
the terms of CEQA. CEQA is involved in the environmental impact 
statement.
    We have done the science to look at what our impact would 
be; and, in this case, it is a unique situation in the sense 
that we could take the amount of water that we'd use at peak 
out of the system to see the impact. You can't usually do that. 
You usually have to model it. But because of the way the 
springs come together and then we could divert one of the 
springs and just have the amount left----
    Mr. Issa. You could test the theory.
    Ms. Paul. We could test the theory. That said, we have 
heard from the town and from environmental groups that they 
want more information. And we are in a process--we're sitting 
down with environmental groups, concerned citizens and a third-
party hydrologist and biologists from UC Davis at the 
recommendation of environmental groups; and we're going through 
what more science would they be comfortable with, that we'd be 
comfortable with to get more information.
    Mr. Issa. Excellent.
    Thank you, Mr. Chairman. I think this takes us a long way 
with this panel. I appreciate your calling this hearing.
    Mr. Kucinich. I thank the gentleman from California for his 
participation as always. I know that you have a markup and 
you're trying to do double duty here. I appreciate you being 
here.
    The gentlelady from California has informed me she doesn't 
have any other questions of this panel. Nor do I. I want to 
thank each member of the panel for your participation. This 
committee will continue to look at the issues that have arisen 
as a result of your testimony, and we reserve the right to 
submit additional questions in writing.
    And I appreciate Ms. Paul's presence here; and we would ask 
that you'd respond, you know, to the committee's inquiries as 
you indicated you would.
    So I'm going to dismiss the first panel, and we're going to 
call the second panel to come up. Thank you again.
    Will the second panel please come forward.
    I want to thank all of the members of the first panel 
again. We're going to try to get this second panel started in 
an expeditious manner, and I would ask that the witnesses be 
seated.
    I'm going to do some introductions.
    We have here Ms. Wenonah Hauter, who is the executive 
director of Food & Water Watch, an organization dedicated to 
educating policymakers and the public about food safety, 
agriculture, environmental issues and water rights.
    From 1997 to 2005, Ms. Hauter served as director of Public 
Citizens Energy and Environmental Program, which focused on 
water, food and energy policy. Before that, she was 
environmental policy director for Citizen Action and worked on 
sustainable energy campaigns for the Union of Concerned 
Scientists.
    Next, Mr. David Hyndman. Mr. Hyndman is professor of 
geological sciences at Michigan State University where he 
studies the physical and chemical processes that influence 
groundwater flow. Professor Hyndman's research also examines 
how land use changes in regional watersheds affect ecological 
health. For the past 10 years, Professor Hyndman has been 
associate editor of the journal Groundwater, was association 
editor of the journal Water Resources Research for 5 years and 
is published widely on hydrological issues.
    Professor Noah Hall is a professor at Wayne State 
University Law School in Detroit, MI, where he teaches 
environmental law and water law. Before joining the Wayne State 
faculty, Professor Hall taught at the University of Michigan 
Law School and was an attorney with the National Wildlife 
Federation where he managed the Great Lakes Water Resources 
Program. Professor Hall also worked in private practice in 
Minnesota for several years and clerked for the Honorable 
Kathleen A. Blatz, Chief Justice of the Minnesota Supreme 
Court.
    Mr. Joseph Doss is president and CEO of the International 
Bottled Water Association in Alexandria, VA. The IBWA was 
founded in 1958 and is the trade association representing the 
bottled water industry both internationally and domestically. 
Mr. Doss has extensive experience in association management, 
food and drug matters, governmental affairs, public relations 
and legal issues. Before joining the IBWA, Mr. Doss was the 
director of Public Affairs At the Consumer Healthcare Products 
Association from 1997 to 1999.
    Mr. James Wilfong is an entrepreneur, educator and public 
servant. He is executive director of H20 for ME, a ground water 
advocacy group. He also served as a member of the Maine 
Legislature and as an assistant administrator for the Office of 
International Trade at the Small Business Association during 
the Clinton administration. Mr. Wilfong is co-founder of 
several enterprises, including Atomic Ski USA and Innovative 
Applied Sciences, a software development company of which he is 
the chairman.
    I want to thank the members of the panel for being here. It 
is the policy of the Committee on Oversight and Government 
Reform to swear in all the witnesses before they testify. I'd 
ask each of you to rise--all of you to rise and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you very much. Let the record reflect 
that the witnesses have answered in the affirmative.
    As with the first panel, I ask that the witnesses give an 
oral summary of his or her testimony and to keep this summary 
under 5 minutes in duration. Bear in mind the complete written 
statement will be included in the hearing record.
    I'd like to begin with Ms. Hauter.
    Thank you. You may proceed.

STATEMENTS OF WENONAH HAUTER, EXECUTIVE DIRECTOR, FOOD & WATER 
  WATCH; DAVID W. HYNDMAN, DEPARTMENT OF GEOLOGICAL SCIENCES, 
MICHIGAN STATE UNIVERSITY; NOAH D. HALL, WAYNE STATE UNIVERSITY 
 LAW SCHOOL; JOSEPH K. DOSS, PRESIDENT AND CEO, INTERNATIONAL 
    BOTTLED WATER ASSOCIATION; AND JAMES WILFONG, EXECUTIVE 
                      DIRECTOR, H20 FOR ME

                  STATEMENT OF WENONAH HAUTER

    Ms. Hauter. Good afternoon, Chairman Kucinich and 
Congresswoman Watson. Thank you for the opportunity to testify 
today.
    My organization, Food & Water Watch, is very concerned 
about the commodification of water, which is a resource owned 
by no one and needed by everyone. In setting the context for 
the discussion of the bottled water industry's mining in rural 
communities, it is important to acknowledge both the industry's 
explosive growth over the last 20 years and its profit--that 
its profitability is based on selling the myth that bottled 
water is some how safer and better than tap water.
    The truth is that bottled water is generally no cleaner, no 
safer or healthier than tap water and that the Federal 
Government requires far more rigorous and frequent testing and 
monitoring of municipal drinking water. Almost half of all 
bottled water is nothing more than reprocessed tap water. The 
FDA only requires that companies test four empty bottles once 
every 3 months for bacterial contamination, and they must test 
a sample of water after filtration and before bottling for 
bacteria once a week.
    In contrast, the EPA requires that public water systems 
serving more than one million residents test water 300 times 
per month and utilities serving more than 3 million people must 
collect and test 480 samples monthly.
    Now I raise this issue because the lax regulation of the 
bottled water industry is one of the things that helps make it 
profitable, along with the little that they pay to access 
water.
    A former chairman of Perrier was quoted as saying, ``it 
struck me that all you had to do is take the water out of the 
ground and then sell it for more than the price of wine, milk 
or, for that matter, oil.'' And it is true. Bottled water costs 
more than gasoline or the companies charge about $1.50 for a 
20-ounce bottle of water which penciled out to more than $9 a 
gallon. That profit must be measured against the mere cents 
that it costs them to bottle the water.
    But those few cents are only the company's internal costs, 
the ones they have to pay. The mining of water does not include 
the external economic, social and environmental costs to rural 
communities and society in general, such as the loss of 
groundwater, toxic emissions from plastic production and 
disposal, air pollution and damage to roads and other local 
infrastructure from transporting the products.
    For instance, plastic bottle production in the United 
States annually requires more than 1.5 million barrels of oil, 
enough to fuel 100,000 cars. Worldwide bottling of water uses 
about 2.7 million tons of plastic. And after the production of 
billions of plastic bottles and the national and international 
travel of bottled water, billions of those empty bottles 
remain. Eighty-six percent of empty plastic water bottles in 
the U.S. land in the garbage instead of being recycled.
    Besides the cost to the environment of the plastic bottles, 
water mining could have long-lasting effects on the rural 
communities where it is mined. When the flows and levels of a 
region's springs, wetlands, lakes, streams and rivers are 
materially altered because of the extraction for bottling, the 
entire local and even regional environment suffers; and this 
extends to the activities that depend on water: agriculture, 
the individuals in the community, businesses, tourism and 
recreation.
    And groundwater is a fragile resource. Our Nation's 
groundwater reserve is not a single vast pool of underground 
water but is contained within a variety of aquifer systems that 
cross political lines at county, State and international 
boundaries.
    Groundwater management decisions in the United States are 
made at local level by a State municipality or special district 
formed for groundwater management. The monitoring of 
groundwater reserves is uneven around the country and often the 
amount of water available in an aquifer is unknown because of 
lack of data collection and the analysis that is needed to 
support informed decisionmaking about groundwater.
    Some communities across the country developed water 
management plans that take into account such issues as 
population and climate change, including drought. The people 
and businesses living and operating there have to live within 
the rules set forth in these plans, but often bottling 
companies get a nearly free pass, even though they're 
permanently removing water from a community's aquifer. Indeed, 
in McLeod, CA, which we discussed earlier, they plan to extract 
about 500 million gallons of water annually; and it appears 
that the contract would give the company preference over the 
town's ratepayers.
    What is more, the local water district bears all the 
responsibility for the well-being of the springs and the water 
infrastructure. The ongoing extraction of water from cities and 
rural areas to be bottled and sold----
    Mr. Kucinich. I'm going to ask the gentlelady to wrap it up 
because your time has expired, and I just want to try to keep 
to the 5-minute rule. Thank you.
    Ms. Hauter. So our recommendation is that the Federal 
Government should, of course, strengthen bottled water quality 
regulations. But, just as importantly, we believe that there 
must be some kind of regulation or standard at State and local 
levels that addresses how much water bottling companies can 
extract from State. Federal funding should be provided to 
collect adequate data about the health and quantity of 
groundwater, and this data needs to be properly analyzed.
    Mr. Kucinich. Thank you. I want to thank you for your 
excellent testimony.
    [The prepared statement of Ms. Hauter follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kucinich. I just want every member of the panel to know 
that your statement, the entire statement, will be included in 
the record of the hearing. So, you know, I know, having been on 
the other side of a panel and testifying, that the tendency is 
to try to get in every word. That's where I learned how to talk 
fast. But you can just present a good, solid 5 minutes, and 
we'll include everything in the record, and I think during the 
Q&A we'll probably have an opportunity to cover it all.
    So, with that, again I want to thank Ms. Hauter for her 
testimony and proceed to Professor Hyndman.

                 STATEMENT OF DAVID W. HYNDMAN

    Mr. Hyndman. Thank you, Chairman Kucinich and members of 
the subcommittee, for inviting me to testify today.
    Mr. Kucinich. Could you move a little bit closer to the 
mic.
    Mr. Hyndman. Certainly, Sir.
    In addition to my research in groundwater hydrology and 
surface water hydrology that you mentioned, I've also been an 
expert witness in several cases involving groundwater; and 
those have included several that relate to the bottled water 
industry. And in all cases so far, I have been retained by 
those opposed to the bottled water industry. However, today 
I've been asked to come here on my own behalf and give general 
scientific opinions about the impact of the bottled water 
industry on surface water, groundwater and riparian areas. And 
in addition to that testimony, I'll briefly discuss some issues 
related to the Food and Drug Administration's definition of 
spring water, which I think relates to many of the issues where 
bottled water companies are placing their plants in the 
headwater of stream systems.
    The issues that I see with the FDA definition is there is 
little to distinguish spring water from diffuse groundwater 
seepage into stream systems. In addition, if we look at what is 
happening in groundwater systems, an area that could be called 
a spring is really a focused area where water is coming out of 
the subsurface, whereas most groundwater is flowing in in a 
diffused sense along the surface water systems; And that is 
where I think some of the confusion comes to play.
    The FDA has a specific definition that says if the 
groundwater is not extracted directly from the orifice of the 
spring, then it can be tapped by a bore hole that is in 
connection with the same formation and that connection has to 
be shown in a hydrogeologically scientific fashion.
    The issue with that specific clause leads bottle water 
plants to often be put in headwaters of streams. Because, in 
those areas, it is really easy to demonstrate that connection 
because there is very little flow coming into the system other 
than what is coming in via some localized areas. The problem 
with that is that these headwater systems are also 
environmentally sensitive, and they are areas where the 
consequences and impacts of pumping may be the largest.
    If you separate these out into really groundwater and 
surface water issues and you look at what the previous 
panelists have already mentioned, most of the impacts that you 
heard were related to surface water and that is because that's 
where a lot of the environmental concern is.
    You also heard a little bit about groundwater concerns. If 
there are people living in the vicinity of high capacity wells, 
the water table or the level of water in the subsurface is 
declined in the vicinity of that well, and that can extend over 
a large area. So there are potential impacts to localized 
groundwater users.
    I'll focus most of my testimony, however, on the surface 
water issues because that is where, again, the most 
environmental harm is. If you pump shallow groundwater 
effectively, there is a one-to-one relationship between how 
much is pumped and the reduction in stream flow in the nearby 
areas. So high capacity wells can, as a result of that, cause 
large percentage declines in the flow of surface water.
    When you reduce surface water flow, by the nature of doing 
that you're also reducing the level of streams. If you reduce 
the level of streams, there is environmental consequences, 
especially if there are riparian wetlands right in the vicinity 
of that. Some of the concerns that have been expressed in cases 
I've been involved are reduced navigability, degraded aesthetic 
quality and impairment of the stream for aquatic organisms and 
fish. In addition, the pumping can alter the water temperature, 
which can also be a problem for the ecological systems.
    Finally, some of the most sensitive systems are wetland and 
lake systems where if you lower the groundwater level below 
these, if they're connected to groundwater, the level of the 
wetlands will also decline.
    The seasonal effects are worse. If you look at pumping 
during the middle of the growing season, the declines will be 
more significant. They are even more significant if you're in a 
drought period. So all of these things are on top of the 
natural variability in a system.
    In terms of recommendations, I'd recommend additional 
funding in areas of hydrologic science. Several people have 
mentioned this already in terms of examining new mapping 
approaches and new approaches that characterize what the 
impacts are of not only bottled water pumping but any broad 
level of pumping and climate change and land use change.
    Thank you for the opportunity to speak to you today.
    Mr. Kucinich. I thank the gentleman.
    [The prepared statement of Mr. Hyndman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kucinich. Professor Hall.

                   STATEMENT OF NOAH D. HALL

    Mr. Hall. Thank you, Mr. Chairman and members of the 
committee.
    I'm going to very briefly summarize the applicable State 
and Federal law that deals with the extraction and pumping of 
groundwater both for bottled water and for other water uses.
    Water use and extraction, both groundwater and surface 
water, is primarily the domain of State law. The rules 
governing how much water you can pump, from what resource, how 
much impacts are allowed are typically addressed under State 
law.
    State law comes at groundwater pumping from two directions. 
There is background common law principles that are intended to 
primarily address conflicts between water users of a shared 
water resource. The original rule that was used here was what 
was called a rule of capture. What this meant was basically if 
you could pump the water, it is yours. It would be no different 
from me turning to Mr. Doss on my left here, grabbing his 
water, drinking it and saying I got it and now it is mine. So, 
in effect, the rule of capture is really no rule at all.
    That rule has not remained in almost any State. The one 
exception being Texas, which I'll come back to in a moment. But 
in almost every other State, the rule of capture, we've moved 
beyond that, and we've evolved toward a more correlative rights 
approach to share groundwater resources. What this means is 
that a landowner has the right to the reasonable use of the 
groundwater below his property unless that reasonable use 
interferes with the neighboring landowner's reasonable use of 
the same groundwater.
    And when reasonable uses of shared waters are in conflict 
or interfere with each other, courts reconcile those conflicts 
using a variety of equitable principles, including 
opportunities for water conservation, sharing, reduction of 
need, reasonableness of use, economic values, social harms, 
environmental impacts, etc.
    Most recently, we've seen this shared correlative rights 
approach to groundwater use extend to the types of conflicts 
that Professor Hyndman just mentioned where groundwater 
withdrawals impact surface waters and courts have begun 
applying the same principles: shared, reasonable use, 
correlative rights, equitable remedies to resolve groundwater 
and surface water conflicts.
    The common law, however, is not perfect. It has some 
serious shortcomings. Primary among those, I believe, are, 
first of all, the cost of litigation, which several members of 
the first panel can attest to firsthand. Common law litigation 
tends to be very expensive and requires the use of numerous 
expert testimony.
    Second, the common law does a very good job of protecting 
shared rights and groundwater, but it doesn't do such a great 
job of ensuring environmental protection of public resources 
from water pumping, and this is where State statutes have come 
in. Many--I'd say most, but not all, State have in place some 
type of regulatory statute scheme to ensure that water 
withdrawals don't have unreasonable harm on natural resources, 
aquatic life, fisheries, wetlands, etc. Some of these systems 
and programs work quite well. Some of them don't. There is 
tremendous diversity both in how strict the standards are, how 
well they are enforced and in the ability for citizens to avail 
themselves of remedies under the statutes.
    Beyond State law, I want to briefly mention the Federal 
role in all of this. The Federal Government doesn't regulate 
water use, and for the Federal Government to take on regulation 
of water use would be an undertaking that would make regulation 
of carbon emissions seem modest in comparison.
    But the Federal Government has been a driver of water use. 
The Food and Drug Administration [FDA], for over a decade 
through its source identity regulations have required that if 
water bottlers want to label their bottled water as spring 
water--and spring water seems to be the label that consumers 
prefer over any other--then, as Dr. Hyndman said, it requires 
the water bottlers to go to groundwater that has an immediate 
and direct connection to a natural spring.
    Inadvertently, this puts tremendous pressure on the water 
resources that are least able to withstand groundwater pumping 
pressures. Bottled water is not a large user of groundwater 
nationwide or on a macro scale. But when water bottlers, to 
comply with the FDA regulations, go into the headwaters of a 
relatively small spring system, even a modest size withdrawal, 
a few hundred thousand gallons per day, which is modest in this 
area, can have a significant environmental impact.
    So I'd offer two brief recommendations for the committee's 
consideration. The first is, I would echo the recommendations 
of several of the panelists before me that we give the USGS, 
U.S. Geological Survey, increased support and resources to 
conduct extensive groundwater mapping, water use data analysis, 
investigative studies. The USGS data is critically important to 
both State and private decisionmakers in this area.
    Second, I would encourage this committee to exercise its 
oversight jurisdiction and powers to work collaboratively with 
the FDA and other stakeholders involved in this issue to reform 
and revise the FDA's bottled water identity rules to basically 
allow water bottlers to continue to identify their product in a 
way the consumers demand and deserve but doesn't put pressure 
on our most vulnerable springs.
    Mr. Kucinich. I thank the gentleman for his testimony, and 
I will note that you presented this committee with an extensive 
preparation. And I think the Members are grateful to you and to 
all of those who have presented this voluminous testimony.
    [The prepared statement of Mr. Hall follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kucinich. So, Mr. Doss, please continue.

                  STATEMENT OF JOSEPH K. DOSS

    Mr. Doss. Good afternoon, Chairman Kucinich. And 
Congresswoman Watson I think has just left.
    My name is Joe Doss, and I am president and CEO of the 
International Bottled Water Association. We appreciate this 
opportunity to discuss environmental issues associated with the 
bottled water industry's extraction of groundwater.
    Groundwater, particularly spring water, is the primary 
water source for bottled water products sold in the United 
States. Because a long-term, sustainable supply of high-quality 
water is the foundation and lifeblood of bottled water 
companies, IBWA members recognize the critical importance of 
environmental conservation and stewardship of all water 
resources. In particular, IBWA supports groundwater management 
laws that are comprehensive, science-based, 
multijurisdictional, treat all users equitably and balance the 
rights of current users and the future needs to protect the 
sustainable resource.
    The bottled water industry uses only minimal amounts of 
groundwater to produce this important consumer product and does 
so with great efficiency. According to a 2005 study by the 
Drinking Water Research Foundation, annual bottled water 
production accounts for less than 2/100 of the 1 percent of the 
total groundwater withdrawn in the United States each year.
    The two largest users we've heard before of groundwater in 
the United States are irrigation and public water systems. 
According to the 2004 U.S. Geological Survey, irrigation 
accounted for 68 percent of the total groundwater withdrawn, 
while public water systems was the second largest user at 20 
percent.
    It is important to note that an aquifer or other 
groundwater source does not know the difference between water 
withdrawn to produce bottled water and water withdrawn to make 
other beverages or consumer products. Although bottled water is 
currently the second most consumed beverage in the United 
States, its consumption volume is about half of that of 
carbonated soft drinks and only slightly ahead of milk and 
beer. All such beverage products fundamentally have a high 
water content. Bottled water is just one of countless products 
and enterprises that use water; and to single out any one 
product or industry, particularly one that accounts for only 
0.02 percent of all withdrawals, will not be effective in 
sustaining groundwater resources.
    The States have a strong interest in regulating and 
ensuring efficient use of water resources and must effectively 
manage them to ensure that this important resource will be 
sustainable for all users. IBWA believes that in order to 
ensure sustainable water resources, a comprehensive management 
approach must be taken. To this end, the bottled water industry 
has been a strong and vocal supporter of comprehensive State 
groundwater management legislation that requires the permitting 
of large groundwater withdrawals and ensures a science-based 
approach to evaluating potential impacts of all users.
    For example, we recently supported the enactment of such 
laws in Maine, Michigan and New Hampshire. Based on our 
experiences in the State, it is very clear to IBWA that there 
is a need for more and better data on the aquifers throughout 
the United States in order to assist State authorities in 
managing available water resources. We think that this is an 
area where the Federal Government can play an important role. 
As a result, IBWA supports the enactment of H.R. 135 which 
would establish the 21st Century Water Commission to make 
recommendations on how to ensure comprehensive water resource 
strategy in the United States.
    The Commission would be authorized to, one, project U.S. 
future water supply and demand; two, study current water 
management programs of Federal, intrastate, State and local 
agencies; and, three, consult with representatives of such 
agencies to develop recommendations for a comprehensive water 
strategy.
    Bottled water is comprehensively regulated as a processed 
food product by the FDA. By law, FDA's bottled water 
regulations must be as stringent and protective of the public 
health as EPA's standards for public drinking water systems.
    Under FDA regulations, there are two fundamentally distinct 
types of bottled water products. The first type is natural 
water, such as Artesian water, mineral water and spring water, 
which all have groundwater sources. The second type is 
processed water, such as purified water, which could be from a 
groundwater or a municipal water source. Bottled water is sold 
in small containers at retail locations and restaurants and is 
also delivered to homes and offices in three- and five-gallon 
bottles used with water coolers.
    In summary, Mr. Chairman, bottled water is a safe, healthy, 
convenient food product and is an extremely small user of 
groundwater when compared with all other users. The bottled 
water industry is a conscientious and dedicated steward of the 
environment which has been demonstrated by its active pursuit 
of responsible groundwater management policies at both the 
Federal and State level.
    IBWA supports groundwater management policies, laws and 
regulations that are comprehensive, science-based, 
multijurisdictional, treat all users equitably and balances the 
rights of current users and the future needs to provide a 
sustainable resource.
    Thank you for considering our thoughts, and IBWA stands 
ready to assist the committee and the subcommittee as it 
considers this very important issue.
    Mr. Kucinich. I thank the gentleman.
    [The prepared statement of Mr. Doss follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Kucinich. Mr. Wilfong.

                   STATEMENT OF JAMES WILFONG

    Mr. Wilfong. Thank you, Chairman Kucinich. Thank you very 
much for inviting to testify here today on this very important 
topic.
    I'm from a little town in the western mountains of Maine 
called Stow. Stow is located in a very freshwater rich area 
backed up against the State of New Hampshire in the White 
Mountain National Forest.
    In 2003, several citizens of this region, including myself, 
were concerned about the large-scale extraction that was taking 
place in the Fryeburg, ME, section of the Saco River Sand and 
Gravel Aquifer, an aquifer that extends from Bartlett, NH, to 
Hiram, ME. The recipient of this extracted water is the largest 
bottled water company in the world, Nestle. We knew that they 
were not here for a little water, that they were here for a lot 
of water. This raised several immediate questions and concerns 
for us.
    One, who owns the water?
    Two, who will control the usage of the water?
    Three, how will the water be allocated if it becomes 
limited?
    Four, is damage being done to the aquifer or the 
surrounding environment?
    Five, do the citizens of Maine have a financial interest in 
this resource?
    Six, which regulatory agency is responsible to sort out 
these many questions? Is it a State, local or Federal 
responsibility.
    And, seven, since water is considered a tradable good or 
commodity, is trade treaty law somehow involved and how would 
that law affect local, State and Federal laws in the 
environmental area?
    And finally, eight, is our community ready for this 
business?
    I'm sure that we had a few more thoughts, but this was a 
start. The answers to these questions in Maine were not 
encouraging. We are ruled by the common law of absolute 
dominion. Essentially, this law means if the water runs under 
your property, you can pump it. In Texas, they call it the law 
of the biggest pump. Under this doctrine, the landowners over 
groundwater claim ownership. This may seem strange, as 
groundwater and surface water are part of one hydrological 
system and in Maine surface water is in the public trust and 
groundwater is not.
    So several questions remain to be answered.
    So who will allocate the usage?
    It is not clear. It still has not been decided.
    Is the environment and the aquifer being damaged?
    Well, in some cases, studies have been done, but, in many 
cases, expertise for review and long-term evaluation has not 
been sufficient and the public isn't sure the resource is being 
protected.
    What can citizens do to protect their interest?
    In Maine, we wanted to pass a comprehensive law. We looked 
at four legislative concepts. We wanted to extend Maine's 
environmental law to large-scale extraction. We wanted a fair, 
open and transparent citizen's process. We wanted to establish 
reasonable use standards. We wanted to place groundwater under 
the public trust doctrine, and we wanted some recognition of 
the public investment in clean water. We suggested a severance 
tax on major extraction and to have the revenues invested in a 
permanent fund similar to Alaska's oil trust.
    H20 for ME, the bottlers and their stakeholders launched 
into a Statewide debate and added to the national debate on 
groundwater issues. After nearly 4 years of debate and 
discussion, H20 decided it was necessary to protect the 
resource and the environment as a first step. We found 
legislators who agreed. We also found a willingness among the 
bottlers and other stakeholders to be constructive, and we 
negotiated a position.
    In June 2007, the Maine legislature passed a law that does 
the same.
    It places all large-volume wells under the Natural Resource 
Protection Act.
    Two, it provides for an open and transparent citizens 
process.
    Three, it requires perpetual monitoring of all high-volume 
wells.
    Four, it requires the applicant to pay for expert 
consultants to review, evaluate and make recommendations to the 
State.
    Five, it establishes a freshwater resource committee within 
the State planning office to investigate all freshwater uses 
within watersheds.
    And, six, it places environmental management and review 
responsibility for groundwater into two departments.
    That is essentially what it does. It does not establish a 
public trust with water. It does erode absolute dominion. The 
law will only be effective if citizens are diligent about the 
enforcement of its intent.
    Finally, what could the Congress do to help the situation?
    Well, it could provide financial resources and technical 
assistance to local and State regulators involving 
environmental studies and review.
    Two, it could establish Federal minimum environmental 
standards for major extraction wells.
    Three, it could review trade rules concerning water being 
designated as a tradable good and ensure access and control of 
clean freshwater for the long-term best interest of U.S. 
citizens.
    Four, it could extend standing to U.S. citizens using the 
Clean Water Act as a model.
    Five, it could place all freshwater in the public trust, 
and it could hold the national conference on freshwater issues.
    The Maine law is a start. Each State must review its 
situation and adjust its State statutes to meet the new 
realities of the freshwater demands of the bottled water 
industry. For those States with weak and outdated law, the new 
Maine law could be a first-step model.
    I wish that more than 30 years ago when I was a young 
legislator who was working on clean water law that I could have 
seen the future. We could have fixed our groundwater law right 
then. Water was bestowed upon us by the same power that granted 
us our freedom. Water is life. When it comes to potable water 
law, we can't afford to get it wrong.
    Thank you very much.
    Mr. Kucinich. I thank the gentleman.
    [The prepared statement of Mr. Wilfong follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Kucinich. We're now going to go to questions of the 
panel and to Professor Hall.
    In many of the bottling cases, Federal jurisdiction is 
invoked when groundwater extraction affects surface waters. Do 
you believe that Federal agencies such as the Army Corps and 
the EPA diligently enforce acts like the Clean Water Act and 
the Endangered Species Act in these cases?
    Mr. Hall. Thank you, Mr. Chairman.
    In the bottled water cases--in many of the bottled water 
cases, including some of the ones I've been involved in--and I 
should disclose that I represented some conservation groups, 
Trout Unlimited, National Wildlife Federation and the Nestle 
case in Michigan--Federal jurisdiction and Federal statutes 
were not an issue. Federal statutes really come into play only 
incidentally, if, for example, the water bottler is also 
discharging pollutants into a navigable waterway or filling a 
wetland. But keep in mind that the Federal wetland regulations 
only pertain to the placement of dredged or filled material 
into a wetland, not the draining of water out of a wetland. So 
the U.S. Army Corps of Engineers doesn't really have much of a 
hook to address the environmental impacts of water withdrawals.
    Mr. Kucinich. Thank you.
    Now, in the proposed Great Lakes Compact that has not been 
ratified by Congress, I understand there is an exception to the 
anti-diversion provisions for products that are less than 5.7 
gallons. Does this provision effectively exempt typical bottled 
water products? And if it does, is there environmental 
justification for the 5.7 gallon threshold requirement?
    Mr. Hall. That is an excellent question, Mr. Chairman. 
Thank you.
    Of course, I've been intimately involved in both the 
negotiation and drafting of the proposed Great Lakes Compact. 
The exception that you mentioned, the Great Lakes Compact, bans 
diversions of water out of the Great Lakes basin which includes 
parts of eight U.S. State plus two Canadian provinces. Exempted 
from that ban on diversions of water out of the basin is water 
in containers less than 5.7 gallons, basically an office 
cooler. So you're correct. Bottled water is exempted from the 
ban on diversions.
    However, the Great Lakes Compact would also require public 
management by the State of water withdrawals, both ground and 
surface water, at the State level for water that is used within 
the basin; and water withdrawals for bottled water or any other 
use are still subject to those requirements.
    So I think it is actually a pretty fair compromise, all 
things considered. A water bottler within the Great Lakes 
basin, if the Great Lakes Compact is enacted, which I hope it 
is, would be subject to a long list of permit requirements, 
environmental protection standards, water conservation 
measures, as well as citizen review and judicial review of any 
permits that are granted. They wouldn't be flat-out banned, but 
they would be under pretty good regulations, and I think it 
would be a step in a good direction.
    Mr. Kucinich. It is my understanding that the FDA did not 
subject its spring water classification to a NEPA review. Do 
you think it was obligated to do so under law? And if it did 
undertake such a review now, what would be the practical 
consequences? Could anything be gained.
    Mr. Hall. That's another good question.
    When the EPA promulgated its current bottled water rule, it 
did not conduct an environmental impact statement pursuant to 
the National Environmental Policy Act. I believe it should 
have. The issue was not raised at the time.
    I think it is very clear, even just looking at the common 
agreement among the panelists, that bottled water withdrawals 
from springs certainly have the potential for significant 
environmental impacts, which is the threshold requirement for 
an environmental impact statement. And I think if the FDA were 
to relook at that rule or reconsider it or if there were a 
petition for rulemaking filed to the FDA, it would absolutely 
have to comply with the environmental impact statement in 
connection with its bottled water spring rule.
    Mr. Kucinich. I think that is quite significant.
    Now, in the wake of recent Supreme Court decisions 
narrowing the definition of navigable waters in the Clean Water 
Act, have there been proposals to enact new legislation to 
expand Clean Water Act jurisdiction to the maximum that the 
Constitution permits to believe that this legislation is 
advisable and will it make much of a difference for the types 
of disputes that we have heard about today?
    Mr. Hall. Yes, Mr. Chairman, I do. I believe it is 
Congressman Oberstar and my Congressman, Congressman Dingell, 
who have led an effort to enact the Clean Water Restoration Act 
which would make clear really that the Federal Government's 
jurisdiction over navigable waters extends to all waters of the 
United States to the extent of the commerce clause of the 
Constitution. I think that is excellent legislation. That is 
how the Clean Water Act was enforced and applied for over 30 
years. I'd hate to see us take a step back in the wake of the 
Supreme Court's recent Rapano's decision.
    Mr. Kucinich. Thank you, Professor Hall.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    I view water as precious as gold in so many different ways. 
And it was not lost to me that foreign companies came and 
bought a number of water companies in the New England area 
because they bought it for the water and they bought it for the 
land because there is so much land that is reserved to protect 
our water supply.
    I'm wrestling, though, with this topic as it is designed 
against--as it appears to be focused on bottlers of water. I 
look at Candlewood Lake in my State. I think a lot of that 
water goes to New York City. And I'm wrestling with the fact 
that water from northern California goes to southern 
California. I am wrestling with the fact that soda uses water. 
You know, Gatorade uses water. And yet we're focused on the 
water company. You know, I am tempted to ask you, Ms. Hauter, 
if you'd prefer and do you think that Coca-Cola is better for 
me than drinking water from a bottle. Is it better?
    Ms. Hauter. Well, I think what we believe----
    Mr. Shays. No, no, I need you to----
    Ms. Hauter. I think that what we believe is that it is a 
societal question. Do we want safe and affordable----
    Mr. Shays. That's not what I asked you. I asked you 
specifically if you think the water in a Coca-Cola is better 
for you than the water that would be pure?
    Ms. Hauter. I think that is a question--it is an unfair 
question.
    Mr. Shays. It is not an unfair question. If you are going 
to come and testify before us and you are going to attack 
companies for making money, it is very fair. Otherwise, you're 
a meaningless witness, and I shouldn't ask you any questions.
    Do you want to be relevant? Do you want to testify? Then 
answer the question. Please answer the question.
    Ms. Hauter. I think that Coca-Cola is unhealthy and that 
drinking a glass of tap water is a better option than drinking 
bottled water.
    Mr. Shays. Let me ask you this, though. Why would you not 
have the concern--I guess I don't know. Maybe Professor Hall. 
Where does Coca-Cola get its water from?
    Mr. Hall. Coca-Cola--both for the product Coke and as well 
as for what I believe is their Dasani brand primarily uses 
water from a municipal water supply.
    Mr. Shays. Doesn't the same analogy apply to soda and beer 
that would apply to bottled water?
    Mr. Hall. In some instances, yes, it does. For example, 
Coke, which primarily sells bottled water that comes from 
municipal water supply, I believe it is Dasani is their brand 
name.
    Mr. Shays. I'm not talking bottled water.
    Mr. Hall. Yeah, it is the same as Coke.
    Mr. Shays. So they are depleting, in a sense, the water 
supply locally and distributing it nationwide?
    Mr. Hall. Correct.
    Mr. Shays. OK. Water, basically, I believe is 1/50th 
percent of the water that we consume. In other words, it is 
less than a percent. It is not 1/10th of a percent. It is 1/
50th of a percent. So, in the realm of things, why should I be 
focused on this issue, as opposed to the other 99 percent?
    Mr. Hall. That is an excellent question, Representative.
    I would say that, as I hopefully made clear in my initial 
testimony, bottled water is a tiny microscopic use of the 
overall national water supply. And from a macro level, it is 
really not a major concern in terms of our water conservation 
and use. The concern is that spring water bottlers withdraw 
water from, by definition, springs which are very small, 
vulnerable water resources such that----
    Mr. Shays. These are unique water systems that you're 
making the point about?
    Mr. Hall. Exactly.
    Mr. Shays. Let me ask you. In Stanford, CT, next door was 
Greenwich, CT. Greenwich--American Water Co., I think is the 
name of it, didn't have enough supply. The bog reservoir, they 
were going to pump from the ground and put into the pond--into 
the lake, and then they were going to take it. And we realized 
in Connecticut that we didn't have anything that focused on the 
water table. We focused on surface water.
    So what I did as a State legislator is I gave that right to 
the Department of Health. Because I do think Ms. Hauter and 
others have an issue as it relates to a locally confined area 
that may find its water table being drawn down. Why wouldn't 
that just be an issue that Maine, New Hampshire and others 
should work out on their own without the Federal Government 
stepping in?
    Mr. Hall. Well, first off, I'm pretty familiar with that 
region. I actually grew up in Richfield right by Stanford.
    Mr. Shays. Do you have family still there.
    Mr. Hall. Yeah. Yes, sir.
    Mr. Shays. Geez, I have to be on my best behavior. I just 
want to say you have been an excellent witness.
    Mr. Kucinich. And even though the gentleman's time has 
expired, since there is this local connection, I'll ask the 
professor to answer the question.
    Mr. Hall. Thank you. And, in all seriousness, it is an 
excellent question. I think that primarily water use should be 
managed at the State and local level; and I think, by and 
large, State and local governments have done and are doing an 
excellent job of improving their management. But, however, the 
FDA through the spring water rule has created essentially a 
national market for some of the most vulnerable water resources 
in localities and State, and so this is a problem that in some 
part was caused by the FDA and to some extent can be fixed by 
the FDA.
    Mr. Shays. Just last, though, I mean, if the State of New 
Hampshire or Maine or whatever is concerned with what is 
happening with its aquifers, with its springs, it does have the 
legal authority to step in, correct?
    Mr. Hall. Absolutely. Yes.
    Mr. Shays. And I would just say that I hope it does in a 
constructive way working with the bottlers and so on.
    Mr. Kucinich. I thank the gentleman. His time has expired.
    To Professor Hyndman, is there a difference from a 
hydrological perspective when you use groundwater for 
irrigation for agriculture versus using it for extraction for 
water bottling?
    Mr. Hyndman. The primary difference is exactly what 
Professor Hall just mentioned. I mean, groundwater is 
groundwater. If we're talking about shallow groundwater, the 
quality of much of the shallow groundwater across, say, the 
Midwest is fairly similar. The main difference in agricultural 
pumping is that is largely from deeper aquifer systems that are 
further down in a watershed. They're not in the headwaters of a 
watershed.
    Mr. Kucinich. Is one more damaging than the other?
    Mr. Hyndman. Yes. The spring water pumping is more damaging 
because of the fact that it is in the headwaters.
    Mr. Kucinich. Would you repeat that.
    Mr. Hyndman. Yes. The spring water pumping is more damaging 
in my opinion because it is done in the headwaters of 
watersheds.
    Mr. Kucinich. Because it is done?
    Mr. Hyndman. In the headwaters of watersheds in 
ecologically sensitive areas.
    Mr. Kucinich. Now I'd like to ask you one more question, 
but I'd also like to ask Mr. Doss and Ms. Hauter to respond. 
And I've always wondered this. Can people typically perceive a 
difference in taste and is there a quality of difference 
between FDA defined spring water and bottled water that does 
not technically meet the spring water designation. Professor 
Hyndman.
    Mr. Hyndman. For me, that would be a personal choice. And 
I--personally tasting between the two of them in a blind 
tasting, I probably could not tell you if one is spring water 
versus not.
    Mr. Kucinich. Professor Hall.
    Mr. Hall. I doubt the average person could tell the 
difference. And, in fact, some municipalities like Evart, MI, 
have as municipal water, water that meets the FDA spring water 
definition.
    Mr. Kucinich. And Ms. Hauter.
    Ms. Hauter. No. There have been many taste tests around the 
country and people have difficulty. Basically, bottled water is 
marketed on its packaging and its sex appeal and the claims 
that it is healthier, not taste.
    Mr. Kucinich. Sounds like a Presidential campaign.
    Mr. Doss.
    Mr. Doss. It is a consumer choice. Obviously, some 
consumers may prefer tap water; some consumers may prefer 
bottled water. We don't disparage tap water. We think that if 
people are drinking water that is a good thing, because it is a 
very healthy product. Again, it boils down to consumer choice. 
I can tell the difference in many bottled waters, just as I can 
tell the difference between tap water and other beverages.
    Mr. Kucinich. You are saying you can't or cannot.
    Mr. Doss. I can.
    Mr. Kucinich. You can?
    Mr. Doss. Absolutely.
    Mr. Kucinich. Can we take a test right now.
    Mr. Doss. I'm just saying I can certainly tell the 
difference in many bottled waters that I drink.
    Mr. Kucinich. You're under oath, but you're----
    Mr. Doss. Absolutely.
    Mr. Kucinich. We'll give you an exemption.
    OK. Mr. Wilfong.
    Mr. Wilfong. Yes, I think there really is no difference. 
The water just happens to hit a low point in the ground and 
bubbles up and out of it. It is all essentially the same water 
system.
    Mr. Kucinich. OK. To Professor Hyndman, if the FDA changed 
its definition of spring water--I'd like to ask Mr. Doss to 
answer this, too, so you can get ready. If the FDA changed its 
definition of spring water to include groundwater not 
immediately and directly connected to a lake or spring, that 
is, you don't have to draw down the spring when you pump in 
order to sell it as spring water, would that alleviate the 
direct impacts in spring wetland surface water situations like 
in the McCloud, NH, and other locations where they have been 
having problems during lower precipitation--or there have been 
problems during lower precipitation or drought-like conditions.
    Mr. Hyndman. Thank you, Mr. Chairman. It is an excellent 
question.
    If the FDA changed the definition to include groundwater 
that is in the vicinity and even deeper groundwater, that could 
resolve the concern because the pumping would not be pushed 
into those headwater areas. And, in fact, you could do 
hydrogeologic studies that would basically define the best 
areas to put this pumping where it would have minimal impact.
    Mr. Kucinich. Mr. Doss, would you like to respond.
    Mr. Doss. I think the issue really goes back to the 
question of sustainability at the State level. When a State 
grants a permit for a bottled water company to withdraw that 
water, they should take into consideration all the science 
involved. They should take into consideration all the concerns 
raised here today by these professors. And if they decide that 
the water source is not sustainable with the bottled water 
plant, then they should deny the plant the ability to pump 
water from that particular source. So I think it gets back to 
sustainability.
    Mr. Kucinich. I'd like to just go and ask every member of 
this panel a question. From your written and oral testimony, 
there seems to be broad support for the proposition that the 
USGS should be empowered and funded to assume a much greater 
role in groundwater mapping and monitoring. And if this is so, 
why hasn't it been done yet and what political obstacles stand 
in the way of that reform? Ms. Hauter.
    Ms. Hauter. I think it is something that has been 
overlooked and there has been a lack of funding for and that we 
have to get busy and it is not just for bottling--for bottled 
water, but we need to do it for a range of water issues from 
agriculture to industry.
    Mr. Kucinich. Professor Hyndman.
    Mr. Hyndman. I think that the issues go beyond just mapping 
for the U.S. Geological Survey. In fact, it is very important 
for the funding for the USGS to have monitoring of surface 
water. It is an incredible network that the U.S. Geological 
Survey has across the country, but the funds have been 
continually cut. They have to keep going back to cooperators 
for money.
    And personally when I do research on broad scales to try to 
figure out the impacts on the things like climate change and 
land use change, it is very difficult when these USGS gauges go 
off line or, you know, a new one will startup somewhere else 
because that is where a cooperator has an interest. If we don't 
maintain the network for the type of science we're talking 
about, it is very difficult to talk about what the impacts will 
be.
    Mr. Kucinich. Thank you.
    Professor Hall.
    Mr. Hall. The truth is that doing the scientific work, 
gathering information, the research, it is not sexy. It doesn't 
capture the public's imagination. The work that Professor 
Hyndman does, the work that I do, the work that USGS does is 
often overlooked, and that is unfortunate because really that 
information is the foundation for making good decisions. And so 
I think one of the most important things that this committee 
could do would be to strongly recommend more funding and 
support for USGS.
    Mr. Kucinich. Thank you.
    Mr. Doss.
    Mr. Doss. I think I would say that we have a consensus here 
that decisions need to be made on sound science, and I would 
agree with that. And IBWA has supported the enactment of the 
21st Century Water Commission, which will help those Federal 
agencies share data with the State, that can allow the State to 
make more informed decisions, have better science. We think 
that is a great thing, and we support passage of that Federal 
legislation and think that is a proper role for the Federal 
Government.
    Mr. Kucinich. Thank you.
    Mr. Wilfong.
    Mr. Wilfong. Yes, I would agree with all that has been 
said. We need a lot of help, especially in the smaller 
communities that have few financial resources to be able to 
take a hard look at the groundwater situation.
    Mr. Kucinich. Thank you.
    Mr. Hyndman, we showed a photo of the Dead Stream to the 
first panel witness from Nestle. And this photo was taken at a 
time after Nestle began pumping in Michigan. My staff was 
informed that this photo was shown to Nestle. What did you 
think the photo shows? What do you think it shows?
    Mr. Hyndman. This is the mud flats in front of the Doyles' 
property, and the Doyles were involved in that case. And during 
this summer, as well as at least one previous summer, the 
conditions went to a point where the levels had fallen below 
what had been observed prior to pumping. And it is a situation 
where the pumping that is occurring is drawing down the water 
level beyond what the natural conditions would be. So, 
therefore, the impacts are exacerbated by the pumping that 
Nestle has----
    Mr. Kucinich. Was this beavers that did this?
    Mr. Hyndman. No, this is not beavers. This is a low water 
level.
    Mr. Kucinich. How do you know? How do you know it wasn't 
beavers?
    Mr. Hyndman. Because I am very aware of what is happening 
at this site. And there has been a beaver dam intermittently 
down below this site.
    Mr. Kucinich. How many beavers would it take do that?
    Mr. Hyndman. I am not sure how many beavers.
    Mr. Kucinich. OK. I just thought I would ask.
    Ms. Hauter, is there a connection between what you see as a 
threat of privatization of public water resources and the 
deterioration of the public water infrastructure? Could there 
be some sort of taxation scheme by which either consumers or 
producers of water products fund improvements in the public 
infrastructure, such as the Clean Water Fund that you propose 
in your written testimony?
    Ms. Hauter. Yes. This is one of our main concerns with 
bottled water. Because it is sold as safer, because we no 
longer see public water fountains being built, we are concerned 
that it is actually undermining our public water systems. And 
we do generally have very safe and affordable drinking water, 
but we have real infrastructure problems. And every year there 
is a $22 billion deficit. And in the future, in the very near 
future, if we don't have more Federal investment in our water 
infrastructure, we could be in a situation where there isn't 
safe and affordable drinking water. So we would like to see 
that public commitment to safe drinking water grow. And we do 
need a clean water trust fund to do that.
    Mr. Kucinich. Thank you very much.
    I want to thank all the witnesses. I am Dennis Kucinich, 
chairman of the Domestic Policy Subcommittee of the Oversight 
and Government Reform Committee. This has been a hearing on 
assessing the environmental risks of the water bottling 
industry's extraction. I want to thank all the witnesses from 
the first and the second panel for their cooperation. The 
subcommittee will be in correspondence with you to followup on 
some of the points that were raised today. I want to thank the 
staff on both sides for their participation, Mr. Issa for his 
cooperation.
    And without further discussion, this committee stands 
adjourned.
    [Whereupon, at 4:26 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Bart Stupak follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
